<html>
<title> - TWENTY YEARS OF WORKFORCE CHALLENGES: THE NEED FOR H.R. 903, THE RIGHTS FOR THE TSA WORKFORCE ACT OF 2021</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     TWENTY YEARS OF WORKFORCE CHALLENGES: 
                    THE NEED FOR H.R. 903, THE RIGHTS FOR 
                    THE TSA WORKFORCE ACT OF 2021

=======================================================================

                                 HEARING

                                BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2021

                               __________

                           Serial No. 117-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-825 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
                                       
                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                                 
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

             Bonnie Watson Coleman, New Jersey, Chairwoman
Donald M. Payne, Jr., New Jersey     Carlos A. Gimenez, Florida, 
Dina Titus, Nevada                       Ranking Member
Josh Gottheimer, New Jersey          Jefferson Van Drew, New Jersey
Elaine G. Luria, Virginia            Ralph Norman, South Carolina
Bennie G. Thompson, Mississippi (ex  Mariannette Miller-Meeks, Iowa
    officio)                         John Katko, New York (ex officio)
                Alex Marston, Subcomittee Staff Director
          Kathryn Maxwell, Minority Subcomittee Staff Director
                     Alice Hayes, Subcomittee Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Chairwoman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Carlos A. Gimenez, a Representative in Congress 
  From the State of Florida, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               Witnesses

Dr. Everett B. Kelley, National President, American Federation of 
  Government Employees:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Ms. Joi Chaney, Senior Vice President for Policy and Advocacy and 
  Executive Director, Washington Bureau, National Urban League:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Thomas S. Warrick, Nonresident Senior Fellow and Director of 
  the Future of DHS Project, The Atlantic Council:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Jeffrey Neal, Principal and Founder, Chief HRO, LLC:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                             For the Record

The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Chairwoman, Subcommittee on 
  Transportation and Maritime Security:
  Letter From The Association of Flight Attendants--CWA, AFL-CIO 
    (AFA)........................................................     3
The Honorable Carlos A. Gimenez, a Representative in Congress 
  From the State of Florida, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Statement of Administration Policy.............................     6

 
TWENTY YEARS OF WORKFORCE CHALLENGES: THE NEED FOR H.R. 903, THE RIGHTS 
                   FOR THE TSA WORKFORCE ACT OF 2021

                              ----------                              


                          Tuesday, May 4, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., via 
Webex, Hon. Bonnie Watson Coleman (Chairwoman of the 
subcommittee) presiding.
    Present: Representatives Watson Coleman, Payne, Titus, 
Gottheimer, Luria, Gimenez, Van Drew, and Norman.
    Mrs. Watson Coleman. The Subcommittee on Transportation and 
Maritime Security will come to order. Without objection, the 
Chair is authorized to declare the subcommittee in recess at 
any point. Thank you to Ranking Member Gimenez and our panel of 
witnesses for joining us.
    Today marks the first hearing for our subcommittee this 
Congress, and I am excited to be chairing the subcommittee 
during this Congress, and I look forward to working with my 
colleagues on both sides of the aisle to tackle the critical 
security challenges that lay before us.
    The challenge that we have gathered here to discuss today 
is one many of us has grappled with for years. Since TSA's 
establishment nearly 20 years ago, its work force has lacked 
the workplace rights and protections afforded to other Federal 
employees.
    Despite the diversity and the dedication of the 
transportation security officers, or the TSOs, they remain 
among the lowest-paid workers in the entire Government. We 
cannot wait any longer to correct this injustice, and I am 
proud to be an original co-sponsor of Chairman Thompson's H.R. 
903, the Rights for the TSA Workforce Act, a common-sense and 
bipartisan solution to one of TSA's foundational flaws.
    In 2001, after the deadly attacks of September 11, Congress 
passed legislation to create TSA to protect the safety and 
security of our Nation. However, by excluding the TSA work 
force from Title 5, that statute has failed to protect the 
front-line workers who uphold that mission.
    H.R. 903 simply applies Title 5 to the TSA work force and 
ensures TSA employees stand on equal footing to their peers 
elsewhere in Government.
    The contrast between the challenging nature of TSA's work 
and the unfair treatment of its front-line work force is stark 
as can be. Every day, TSOs screen millions of passengers and 
pieces of luggage, securing the public from threats to aviation 
security.
    Behind the scenes, air marshals, TSA inspectors, and other 
essential workers perform equally critical National security 
tasks. In doing so, they must deal with unruly passengers, a 
rapidly-evolving threat landscape, and, in some cases, even 
gunmen who have specifically targeted TSA personnel.
    Instead, basic full-time TSO salaries can start as low as 
$29,000 per year, and even after years of dedicated service, 
the opportunity for advancement can be far more limited than 
for most Federal employees.
    Now over the last year, TSOs have confronted new dangers. 
Even when faced with the prospect of coming into contact with 
thousands of traveling passengers each day amid a deadly 
pandemic, TSOs showed up day after day at great risk to 
themselves and their families.
    To date, 16 TSA employees have tragically lost their lives 
to COVID-19, and approximately 7,800 personnel have tested 
positive. Yet unlike other Federal Government employees, TSA 
employees lack the basic Civil Service protections.
    Full collective bargaining rights? Not if you work at the 
TSA. The ability to appeal disciplinary decisions to a neutral 
third party? Not if you work at the TSA. Title 5 whistleblower 
protections, the regularly-scheduled salary increases almost 
all other Federal workers receive? Again, not at the TSA.
    To add insult to injury, TSOs aren't even paid under the 
Federal Government's normal wage scale, known as the GS scale. 
As I stated before, basic full-time TSO salaries can start as 
low as $29,000 a year, and even after years of dedicated 
service, the opportunities for advancement can be more limited 
than for most employees in Federal Government.
    I think most Americans would be shocked to learn that the 
workers charged with protecting the traveling public are living 
paycheck to paycheck, struggling to pay the rent, sometimes 
relying on food banks, and denied basic workplace protections.
    These disparities come with consequences, and these 
consequences impact TSA's ability to fulfill its Homeland 
Security mission.
    While their salaries are low, turnover and attrition rate 
among front-line TSA employees are very high. Each time a TSO 
quits because of inadequate pay and workplace rights, TSA needs 
to spend more money recruiting and training a new officer.
    According to the Department of Homeland Security, the 
Office of the Inspector General, in specific, in 2017, TSA 
spent $16 million on new hires who left within 6 months. 
Wouldn't these resources be better spent ensuring that TSOs are 
compensated and treated fairly in the first place, so they are 
incentivized to stay and to grow their careers at TSA?
    But rectifying these wrongs isn't just about improving 
retention and morale at TSA. Fundamentally, it is also about 
equity and fairness. The diversity of its work force is one of 
TSA's greatest assets. Fifty-five percent of TSA employees come 
from underrepresented racial and ethnic groups.
    This means that when our law singles out TSA workers for 
disparate treatment, denying them the compensation and the 
protection that other Federal Government employees receive, 
people of color bear the burden of that consequence.
    When the 2019 Government shutdown occurred, and TSOs were 
required to show up for work without receiving a paycheck, this 
extraordinary burden was disproportionately placed on members 
of marginalized communities.
    So instead of maintaining a personnel system that treats 
TSA workers as second class, we should be exploring ways to 
help those workers enter the leadership pipeline and diversify 
DHS as a whole.
    Passing H.R. 903 will send a powerful message to the TSA 
work force that they are anything but second class. They are 
the front line of our Nation's transportation security. They 
are essential workers, and their dedication will be rewarded 
with respect and dignity.
    Simply put, H.R. 903 is about workers' rights, civil 
rights, and enhancing our Nation's security. It is supported by 
Members of both parties, and its benefits will flow to 
communities all across our Nation. The TS work force deserves 
to be treated equally.
    I am looking forward to hearing from our witnesses--thank 
you for being here--who each will bring important and distinct 
perspectives to this issue.
    Finally, before I close, I ask for unanimous consent to 
insert into the record a letter of support for H.R. 903 from 
Sara Nelson, who is the international president of the 
Association of Flight Attendants. Without objection.
    [The information follows:]
  Letter From The Association of Flight Attendants--CWA, AFL-CIO (AFA)
                                    April 30, 2021.
The Honorable Bennie Thompson,
Chairman, House Homeland Security Committee, 310 Cannon House Office 
        Building, Washington, DC 20515.
    Dear Chairman Thompson: The Association of Flight Attendants--CWA, 
AFL-CIO (AFA) represents 50,000 flight attendants across the industry. 
We offer our strong support for H.R. 903, the Rights for Transportation 
Security Administration (TSA) Workforce Act of 2021.
    Twenty years ago, when TSA was created, Congress wrongfully 
excluded TSA agents from basic rights and protections afforded to most 
Federal employees. The result has been a shameful separate and unequal 
system of low pay and inadequate protections for this critical group of 
public safety employees.
    During the pandemic, 7,787 TSA employees have contracted COVID-19 
and 16 have lost their lives to the virus.\1\ Under the previous 
Administration, many TSA agents were forced daily into close proximity 
with hundreds, even thousands, of maskless passengers. Ignoring the 
advice and guidance of Federal health agencies and public health 
leaders, TSA and the Administration permitted airports to set their own 
rules for mask-wearing, denied their workers access to Personal 
Protective Equipment (PPE), and never created a preventative testing 
system. These constitute a profound and unacceptable failure to address 
the vulnerabilities of this essential and frontline workforce. The 
solution is clear. Congress must extend to TSA personnel the equal 
protections and representation long-denied under Federal law.
---------------------------------------------------------------------------
    \1\ https://www.tsa.gov/coronavirus.
---------------------------------------------------------------------------
    As aviation's first responders, Flight Attendants depend on the 
professionalism and expertise of the TSA workforce every day. TSA 
employees need and deserve a strong voice at work to help promote the 
best conditions for security of air travel. H.R. 903 ensures full 
collective bargaining rights for Transportation Security Officers 
(TSOs) to negotiate for better working conditions, puts TSA officers on 
the General Schedule pay scale, and provides officers with much needed 
statutory worker protections against unfair labor practices.
    Security is very personal for me. I remember airport security prior 
to September 11, 2001. I remember the faces of the screeners who 
allowed terrorists to enter Terminal C at Logan and to board Flight 
175. I remember the screeners' faces because they were there all the 
time, 7 days a week, all hours of the day. I remember the sound of 
their voices, their tired smiles, and the long hours they worked for 
the lowest bidding security company just so that they could provide for 
their own families. I often wonder how those security agents have coped 
with their part in failing to stop the most fatal attack on U.S. soil. 
Do they understand they were set up to fail?
    Twenty years ago, the decision to Federalize airport screening 
improved aviation security immediately. When AFGE won the largest 
organizing campaign in the public sector in over 70 years and gave 
these workers a voice at the agency, our security improved again. My 
colleagues and I depend on TSOs to keep us safe. We also depend on our 
union. We know that our union has made flying safer for everyone 
through constant vigilance, and by giving front-line workers--the 
people who know the operation--a clear and strong voice in the 
workplace. Safety and security doesn't just happen; it happens because 
we demand it of ourselves, demand it of management, and demand it of 
government.
    The unjust decision to exclude TSA from the basic rights and 
protections of Federal employees has produced a workforce that is among 
the lowest paid and least secure. While TSA's diversity is a cause for 
celebration--55 percent of the TSA workforce identifies as a racial or 
ethnic minority \2\--this makes their exclusion even more problematic, 
creating yet another disparate treatment, another barrier to 
advancement for historically marginalized workers.
---------------------------------------------------------------------------
    \2\ https://Federalnewsnetwork.com/workforce/2020/03/dhs-workforce-
is-more-diverse-than-most-but-struggles-to-prime-employees-for-
leadership-roles/.
---------------------------------------------------------------------------
    We finally note that the drive to win long-denied rights for TSOs 
aligns with the goals of the newly formed White House Task Force on 
Worker Organizing and Empowerment.\3\ The first goal of this landmark 
Task Force is to ``lead by example by ensuring that the Federal 
Government is a model employer with respect to encouraging worker 
organizing and collective bargaining among its workforce (emphasis 
added).''\4\ The moment for action has arrived.
---------------------------------------------------------------------------
    \3\ https://www.whitehouse.gov/briefing-room/statements-releases/
2021/04/26/fact-sheet-executive-order-establishing-the-white-house-
task-force-on-worker-organizing-and-empowerment/.
    \4\ Id.
---------------------------------------------------------------------------
    AFA applauds your leadership and support for the aviation workforce 
and pledges to work alongside you and Members of this committee to 
secure the basic worker rights and protections long denied to 
Transportation Security Officers.
            Respectfully,
                                               Sara Nelson,
                                           International President.

    [The statement of Chairwoman Watson Coleman follows:]
             Statement of Chairwoman Bonnie Watson Coleman
                              May 4, 2021
    Thank you to Ranking Member Gimenez and our panel of witnesses for 
joining us.
    Today marks the first hearing for our subcommittee this Congress. I 
am excited to be chairing the subcommittee, and I look forward to 
working with my colleagues on both sides of the aisle to tackle the 
critical security challenges before us.
    The challenge we have gathered to discuss today is one many of us 
have grappled with for years.
    Since TSA's establishment nearly 20 years ago, its work force has 
lacked the workplace rights and protections afforded to other Federal 
Government employees. Despite the dedication and diversity of 
transportation security officers, or TSOs, they remain among the 
lowest-paid workers in the entire Government.
    We cannot wait any longer to correct this injustice.
    I am proud to be an original cosponsor of Chairman Thompson's H.R. 
903, the Rights for the TSA Workforce Act, a common-sense and 
bipartisan solution to one of TSA's foundational flaws.
    In 2001, after the attacks of September 11, Congress established 
TSA to protect the safety and security of our Nation. However, by 
excluding TSA's workforce from Title 5, the statute failed to protect 
the front-line workers who uphold that mission.
    H.R. 903 simply applies Title 5 to the TSA workforce and ensures 
TSA employees stand on equal footing to their peers elsewhere in 
Government.
    The contrast between the challenging nature of TSA's work and the 
unfair treatment of its front-line workforce is stark as can be.
    Every day, TSOs screen millions of passengers and pieces of 
luggage, securing the public from threats to aviation security.
    Behind the scenes, air marshals, TSA inspectors, and other 
essential workers perform equally critical National security tasks.
    In doing so, they must deal with unruly passengers, a rapidly-
evolving threat landscape, and in some cases, even gunmen who have 
specifically targeted TSA personnel.
    Over the past year, TSOs have confronted new dangers. Even when 
faced with the prospect of coming into contact with thousands of 
passengers each day amid a deadly pandemic, TSOs showed up day after 
day at great risk to themselves and their families.
    To date, 16 TSA employees have tragically lost their lives to 
COVID-19, and approximately 7,800 personnel have tested positive.
    Yet unlike other Federal Government employees, TSA employees lack 
basic civil service protections.
    Full collective bargaining rights? Not if you work at TSA.
    The ability to appeal disciplinary decisions to a neutral third 
party? Not if you work at TSA.
    Title 5 whistleblower protections? The regularly-scheduled salary 
increases almost all other Federal workers receive? Again, not at TSA.
    To add insult to injury, TSOs aren't even paid under the Federal 
Government's normal wage scale--known as the GS scale.
    Instead, basic full-time TSO salaries can start as low as $29,000 
\1\ per year. Even after years of dedicated service, the opportunities 
for advancement can be far more limited than for most Federal 
employees.
---------------------------------------------------------------------------
    \1\ $28,688.
---------------------------------------------------------------------------
    I think most Americans would be shocked to learn that the workers 
charged with protecting the traveling public are living paycheck-to-
paycheck, struggling to pay the rent, sometimes relying on food banks, 
and denied basic workplace protections.
    These disparities come with consequences. And those consequences 
impact TSA's ability to fulfill its homeland security mission.
    While their salaries are low, turnover and attrition rates among 
front-line TSA personnel are high.
    Each time a TSO quits because of inadequate pay and workplace 
rights, TSA then needs to spend money recruiting and training a new 
officer.
    According to the Department of Homeland Security Office of the 
Inspector General, in 2017 TSA spent $16 million on new hires who left 
within 6 months.
    Wouldn't these resources be better spent ensuring TSOs are 
compensated and treated fairly in the first place, so they are 
incentivized to stay and grow their careers at TSA?
    But rectifying these wrongs is not just about improving retention 
and morale at TSA. Fundamentally, it is also about equity and fairness.
    The diversity of its workforce is one of TSA's greatest assets: 55 
percent of TSA employees come from underrepresented racial and ethnic 
groups.
    This means that when our laws single out TSA workers for disparate 
treatment--denying them the compensation and protections other Federal 
Government employees receive--people of color bear the brunt of the 
consequences.
    When the 2019 Government shutdown occurred and TSOs were required 
to show up for work without receiving a paycheck, this extraordinary 
burden was disproportionately placed on members of marginalized 
communities.
    So instead of maintaining a personnel system that treats TSA's 
workers as ``second class,'' we should be exploring ways to help these 
workers enter the leadership pipeline and diversify DHS as a whole.
    Passing H.R. 903 will send a powerful message to the TSA workforce 
that they are anything but ``second class.'' They are the front line of 
our Nation's transportation security. They are essential workers. And 
their dedication will be rewarded with respect and dignity.
    Simply put, H.R. 903 is about workers' rights, civil rights, and 
enhancing our Nation's security. It is supported by Members of both 
parties and its benefits will flow to communities all across our 
Nation. The TSA workforce deserves to be treated equally.
    I am looking forward to hearing from our witnesses, who each bring 
important and distinct perspectives to this issue. And with that, I 
recognize Ranking Member Gimenez for his opening statement.

    Mrs. Watson Coleman. The Chair now recognizes the Ranking 
Member of the subcommittee, the gentleman from Florida, for any 
opening statement.
    Mr. Gimenez. Thank you, Chairwoman Watson Coleman. I am 
pleased that the subcommittee is holding this hearing today on 
the important challenges facing the TSA work force.
    Transportation security officers serve on the front line 
protecting the traveling public from the ever-present threats 
to our aviation system. Over the past few years, TSOs have 
dealt with a 35-day Government shutdown, significant volume 
changes in passenger throughput at airport checkpoints, and the 
global COVID-19 pandemic.
    Over 7,000 TSOs have tested positive for COVID-19 since 
March of last year, and tragically, we have lost 16 officers to 
that virus. I thank the TSA work force for their immense 
dedication to the American people and the traveling public.
    I look forward to hearing from the witnesses today to 
discuss solutions to meet the challenges of low screener 
morale, recruitment and retention efforts, and pay and 
promotion opportunities.
    I thank Mr. Jeff Neal for his service as chief human 
capital officer at DHS under the Obama-Biden administration, 
and in his role of chief of the Blue Ribbon Panel that examined 
TSA's human capital services delivery. I appreciate him joining 
us today to discuss the implementation of the panel's 
recommendations from 2019.
    I do have concerns with H.R. 903, the Rights for TSA 
Workforce Act of 2021. Madam Chairwoman, I ask unanimous 
consent to enter into the record a Statement of Administration 
Policy from the 116th Congress on H.R. 1140, the Rights for 
Transportation Security Officers Act of 2020. Thank you.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Gimenez. H.R. 1140 is the precursor to the legislation 
we are discussing today. The statement of administration policy 
noted that TSA's current personnel system, authorized by the 
Aviation and Transportation Security Act, ATSA, just months 
after the September 11 attacks, provides the flexibility TSA 
needs so that it can quickly and efficiently adjust its work 
force management to respond to emergency threats or National 
emergencies.
    I share that viewpoint of the legislation we are discussing 
today, H.R. 903. When Congress created TSA in November 2001, 
its goal was to bring in the entrepreneurial spirit of the 
private sector. Placing TSA into Title 5 would go against 
Congress' intent and force employees into an antiquated 20th 
Century system that really is not designed for the 21st Century 
National security threats.
    TSA has all the flexibility it needs for the work force 
from ATSA. It just needs to use that flexibility. Administrator 
Dave Pekoske has stated before Congress that TSA needs to 
employ its ATSA authority to make TSA an employer of choice.
    Our focus today should be to ensure that TSA harnesses the 
creativity and flexibility that it already has within ATSA to 
properly fund TSO salaries and create additional promotion and 
career advancement opportunities.
    As the 20th anniversary of the 9/11 terrorist attacks 
approaches, I thank the men and women at TSA for their hard 
work and determination over the last 2 decades. I look forward 
to finding ways to continue to empower the TSA work force and 
address current challenges within the ATSA framework that 
Congress designed for TSA.
    Thank you, Madam Chairwoman, and I yield the balance of my 
time.
    [The statement of Ranking Member Gimenez follows:]
               Statement of Ranking Member Carlos Gimenez
                              May 4, 2021
    Thank you, Chairwoman Watson Coleman. I am pleased the subcommittee 
is holding this hearing today on the important challenges facing the 
TSA workforce. Transportation Security Officers (TSOs) serve on the 
front lines protecting the traveling public from the ever-present 
threats to our aviation system.
    Over the past few years, TSOs have dealt with a 35-day Government 
shutdown, significant volume changes in passenger throughput at airport 
checkpoints, and the global COVID-19 pandemic. Over 7,000 TSOs have 
tested positive for COVID-19 since March of last year, and tragically, 
we've lost 16 officers to the virus. I thank the TSA workforce for 
their immense dedication to the American people and the traveling 
public.
    I look forward to hearing from the witnesses today to discuss 
solutions to meet the challenges of low screener morale, recruitment 
and retention efforts, and pay and promotion opportunities. I thank Mr. 
Jeff Neal for his service as chief human capital officer at DHS under 
the Obama/Biden administration and in his role of chief of the Blue-
Ribbon Panel that examined TSA's Human Capital Service Delivery. I 
appreciate him joining us today to discuss the implementation of the 
Panel's recommendations from 2019.
    I do have concerns with H.R. 903, the Rights for the TSA Workforce 
Act of 2021. Madame Chairwoman, I ask unanimous consent to enter into 
the record a Statement of Administration Policy from the 116th Congress 
on H.R. 1140, the Rights for Transportation Security Officers Act of 
2020.
    Thank you, Madame Chairwoman. H.R. 1140 is the precursor to the 
legislation we are discussing today. The Statement of Administration 
Policy noted that TSA's ``current personnel system authorized by the 
Aviation and Transportation Security Act (ATSA) just months after the 
September 11 attacks provides the flexibility TSA needs so that it can 
quickly and efficiently adjust its workforce management to respond to 
emerging threats or national emergencies''. I share that viewpoint of 
the legislation we're discussing today, H.R. 903.
    When Congress created TSA in November 2001, its goal was to bring 
in the entrepreneurial spirit of the private sector. Placing TSA into 
Title 5 would go against Congress' intent and force employees into an 
antiquated 20th Century system that was not designed for 21st Century 
National security threats. TSA has all the flexibility it needs for the 
workforce from ATSA; it just needs to use that flexibility. 
Administrator Dave Pekoske has stated before Congress that TSA needs to 
``employ its ATSA authorities to make TSA an employer of choice.''\1\ 
Our focus today should be to ensure that TSA harnesses the creativity 
and flexibility that it already has within ATSA to properly fund TSO 
salaries and create additional promotion and career advancement 
opportunities.
---------------------------------------------------------------------------
    \1\ TSA Administrator David P. Pekoske testimony to House 
Appropriations Homeland Security Subcommittee, March 3, 2020.
---------------------------------------------------------------------------
    As the 20th anniversary of the 9/11 terrorist attacks approaches, I 
thank the men and women at TSA for their hard work and determination 
over the last 2 decades. I look forward to finding ways to continue to 
empower the TSA workforce and address current challenges within the 
ATSA framework that Congress designed for TSA. Thank you, Madame 
Chairwoman, and I yield back the balance of my time.

    Mrs. Watson Coleman. Thank you very much, Mr. Ranking 
Member. Members are also reminded that the committee will 
operate according to the guidelines that are laid out by the 
Chairman and Ranking Member in their February 3 colloquy 
regarding remote procedures. Member statements may be submitted 
for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 4, 2021
    Good afternoon. I would like to thank Chairwoman Watson Coleman and 
Ranking Member Gimenez for holding today's hearing examining the state 
of the TSA workforce.
    I would also like to thank our witnesses for appearing today.
    TSA is essential to the Nation's homeland security enterprise.
    It could not do its critical work without its strongest asset: Its 
workforce.
    For nearly 2 decades, Transportation Security Officers, or TSOs, 
have screened millions of passengers every day at airport checkpoints.
    Unfortunately, after almost 20 years of promises by previous 
administrations to improve TSA's personnel management system, the TSA 
workforce still lacks the resources and support it needs to execute its 
mission successfully.
    Despite serving on the front lines of homeland security during the 
COVID-19 pandemic, TSOs remain among the lowest-paid Federal workers, 
and they do not receive regular salary raises afforded to most Federal 
employees.
    Under TSA's mismanaged personnel system, employees lack basic civil 
service protections and benefits Congress codified for most Federal 
workers many decades ago.
    In recent years, TSOs have worked steadily through Government 
shutdowns, staff shortages, increased passenger volumes and job 
responsibilities, and now a pandemic--yet their pay has remained 
stagnant.
    According to employee surveys, TSA ranks dead last out of 415 
Federal agency subcomponents on employee pay satisfaction.
    TSA has used its administrative authority to limit the scope of 
issues subject to collective bargaining, and TSOs lack the ability to 
appeal adverse personnel actions to an objective third party like other 
Federal workers.
    As a result of these inequitable conditions, the TSA workforce has 
extremely low morale and high attrition.
    TSA spends millions annually to hire thousands of TSOs, only to 
replace them with new TSOs soon after.
    These issues not only cost taxpayers millions spent on constant 
recruitment and training, but ultimately they undermine TSA's security 
mission.
    The Trump administration attempted to undermine the TSA workforce 
through inadequate funding for the agency and threats to end collective 
bargaining for the 45,000 front-line officers protecting our Nation's 
transportation system.
    I am pleased to see the Biden administration take encouraging steps 
to address these concerns.
    However, more needs to be done to provide full protections to these 
front-line workers.
    Over the last 15 years, with the support of the American Federation 
of Government Employees and several colleagues, I have introduced and 
supported numerous measures that would provide TSA employees with a 
more equitable personnel management system.
    With each Congress that passes, our legislative efforts garner 
increasing support.
    Last Congress, I introduced H.R. 1140, the Rights for 
Transportation Security Officers Act of 2020. The House twice passed 
the measure with 242 bipartisan cosponsors.
    This Congress, several colleagues and I introduced H.R. 903, the 
Rights for the TSA Workforce Act of 2021--and I am hopeful this will be 
the Congress we get this effort across the finish line.
    This bill would set a path for increased pay and benefits for TSOs, 
providing access to the same basic personnel system used by most of the 
Federal Government.
    Addressing TSA's workforce challenges in a strategic manner will 
not only improve front-line workforce morale, but also advance aviation 
security in the face of evolving threats.
    TSOs continue to serve on our front lines, protecting the traveling 
public during the National pandemic.
    To date, over 7,800 TSA employees have tested positive for COVID-19 
and tragically at least 16 have died after contracting the virus.
    It is high time we do right by them and provide them the same 
rights afforded to most Federal workers under Title 5.
    I strongly urge my colleagues on both sides of the aisle to support 
my bill, and I look forward to partnering with the Biden administration 
to find ways to support the TSA workforce administratively while 
Congress works toward a statutory solution.

    Mrs. Watson Coleman. The Chair will now recognize our 
witnesses. We would like to remind the witnesses that your full 
statement will become a part of the record. I would ask you to 
summarize your statement for 5 minutes.
    Our first witness is Dr. Everett Kelley, who is the 
national president of the American Federation of Government 
Employees, the largest union representing Federal and D.C. 
employees.
    Mr. Kelley has, indeed, had a very prestigious career. He 
has been a member of AFGE since 1981, serving in various roles, 
including as national VP and president of Local 1845. He is a 
veteran of the United States Army and worked at the Anniston 
Army Depot, which he retired from after 30 years, and he also 
served as a senior pastor of St. Mary Missionary Baptist Church 
in Lincoln, Alabama, for 31\1/2\ years before retiring in 
February 2019 and being appointed pastor emeritus.
    Mr. Kelley, I think you have a new definition of 
``retire.''
    Second is Ms. Joi Olivia Chaney. She is the executive 
director of the Washington bureau and senior vice president for 
policy and advocacy at the National Urban League. Ms. Chaney is 
a domestic legal policy expert, political strategist, and 
former chief of staff to Senator Kirsten Gillibrand of New 
York.
    She has served as the director of Equal Pay Today, and as 
senior policy counsel at Equal Rights Advocates. She held 
senior roles in the Obama administration where she served as 
chair of the United States Equal Employment Opportunity 
Commission.
    Mr. Tom Warrick is the director of the future of DHS 
project and a nonresident senior fellow with the Scowcroft 
Center for Strategy and Security and the Middle East Programs 
Group at the Atlantic Council.
    Prior to joining the Atlantic Council from August 2008 to 
June 2019, he was the deputy assistant secretary for 
counterterrorism policy at the Department of Homeland Security, 
and a career member of the Senior Executive Service. He was an 
international lawyer in private practice for 17 years, 
representing companies in connection with investment in the 
Middle East and elsewhere.
    Finally, Mr. Jeffrey Neal, he is the founder and principal 
of Chief HRO, LLC. He was previously a senior vice president 
for ICF. Prior to joining ICF, he worked for the Department of 
Homeland Security as the chief human capital officer under the 
Obama administration.
    Mr. Neal serves as a fellow director and former board chair 
for the National Academy of the Public Administration, and 
serves as the strategic adviser to government executives for 
the Partnership for Public Service.
    So without objection, the witnesses' full statements will, 
indeed, be inserted in the record. I am going to now ask each 
of the witnesses to summarize his or her statement for 5 
minutes, beginning with Dr. Kelley.

 STATEMENT OF EVERETT B. KELLEY, NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Kelley. Thank you, Chairwoman Watson Coleman, Ranking 
Member Gimenez, Chairman Thompson, and Members of the 
committee. On behalf of the more than 41,000 transportation 
security officers that AFGE represent, I appreciate the 
opportunity to offer testimony today. AFGE strongly support 
H.R. 903, the Rights for the TSA Workforce Act, that extend 
full Title 5 collective bargaining rights and fair pay for the 
TSO work force.
    For 19 years, TSOs have been subject to a separate but 
unequal personnel system that sets them apart from other 
Federal employees. They have fewer due process rights than even 
their fellow TSA employees, let alone their fellow DHS 
employees.
    TSOs are denied the ability to appeal rights. The bosses at 
TSA, however, have the same rights as other Federal employees. 
They can do--they can, rather, and do, appeal adverse actions 
not only to the MSPB, but also to the U.S. Court of Appeals. 
Thus, no one can say that TSA cannot function if its employees 
have full legal protection.
    Justice demands that TSOs have the same protection as the 
TSA employees who supervise them. TSA management has taken full 
advantage of this separate system to foster a toxic work 
environment. Fear and intimidation are the basis of everyday 
management, and there is little the work force can do to hold 
them accountable.
    To this abuse work environment, the issue of low pay comes. 
Even some who have opposed providing due process rights to TSOs 
have acknowledged that their pay is far too low. An average 
screener starts at about $35,000 per year, and since most live 
in large metropolitan areas, it is not a living wage.
    H.R. 903 will place the TSA work force on the GS pay scale, 
the pay system that virtually everyone else at DHS and 
throughout the Federal Government and work force have. Many 
people try to delegitimize the GS locality system by calling it 
antiquated or inflexible.
    Some TSA managers have tried to turn TSOs against the GS 
system. They falsely assert pay is better under the current TSO 
system, and at the same time, GS pay costs too much. This is 
contradictory. The truth is that it takes 18 years to advance 
to the top step in the GS system. Meanwhile, it takes 30 years 
to advance through a TSA pay band.
    I had hoped to provide videos from TSOs sharing their 
stories, but the toxic work environment that they endure posed 
too much of a risk of retaliation, so I will do my best to 
share their stories.
    Worker M has worked as a TSO in Pennsylvania for 9 years. 
She and her husband both work full-time. They can barely make 
ends meet. She is first to volunteer for extra shifts, often 
working 14 hours at a time, and giving up most of her days off. 
Fair pay would mean more time with her small children.
    Worker J works in the Washington area for 5 years, and now 
fighting for, you know, back pay for reinstatement. He returned 
from surgery that was not related to his vision, but was told 
that he had to take a color vision test. His supervisor told 
him he failed the test, but would not provide him the results. 
He took a second test, and was told he didn't pass and would 
not be fit for duty.
    He went on to his own private optometrist, passed a color 
vision test. He used the results to appeal his removal. The in-
house professional responsibility appeal board recommends 
reinstatement and back pay, and still, yet, TSA says that he is 
not fit for duty. If he could appeal to MSPB, this would not be 
allowed.
    Worker S works in New York for almost 2 years. She endured 
terrible harassment from her supervisor and her manager. The 
manager often made her uncomfortable, telling her to close his 
door behind and making reference to the size of his anatomy. 
The supervisor intimidated her with constant threats to write 
her up, even declining to inform her of a new COVID-related 
standard operating procedure, and instead telling others to 
hang back and watch her do it wrong, just to make her the butt 
of a joke. Now she is fighting to get her job back.
    These are not isolated occurrences. They happen every 
single day in hundreds of airports. TSA has allowed a 
management culture of harassment, fear, and intimidation to run 
rampant. There is no legal path to pursue, and reporting bad 
managers end in isolation and retaliation.
    My brothers and sisters at TSA work every day to protect 
the flying public. We say the aviation security provided by the 
screening work force is essential for Homeland Security, but 
for too long, TSA has tried to do it on the cheap, if I may 
say.
    Members of this committee, this must end. I urge you to 
advance H.R. 903 to the full House and support Homeland 
Security in our skies the best way you can by voting for this 
legislation. Thank you for your time. I appreciate the 
opportunity to be here.
    [The prepared statement of Mr. Kelley follows:]
                Prepared Statement of Everett B. Kelley
                              May 4, 2021
    Chairwoman Watson Coleman, Ranking Member Gimenez, Committee 
Chairman Thompson, and Members of the Homeland Security Committee: My 
name is Everett B. Kelley, and I am the national president of the 
American Federation of Government Employees, AFL-CIO (AFGE). On behalf 
of over 700,000 Federal workers represented by our union, including 
over 41,000 transportation security officers (TSOs), I appreciate the 
opportunity to offer testimony at today's hearing before the 
Subcommittee on Transportation and Maritime Security of the Committee 
on Homeland Security, ``Twenty Years of Workforce Challenges: The Need 
for H.R. 903, the Rights for the TSA Workforce Act of 2021''. The title 
of this hearing does not evoke nostalgia. Instead, please let it be a 
sounding call to action because the TSOs we represent have experienced 
continual mistreatment, fewer rights, and lower pay than their fellow 
Federal employees as a result of the way the Transportation Security 
Administration (TSA) was authorized. I am here today to reinforce this 
message: Granting TSOs the same, full rights under title 5 of the U.S. 
Code as other Federal employees would directly improve the ability of 
TSA to provide the flying public the highest level of aviation 
security.
    I thank the many Members of Congress on both sides of the aisle who 
stood with TSOs and voted for legislation in the 116th Congress to 
ensure that TSOs have title 5 collective bargaining rights, full due 
process rights, and fair pay. Unfortunately, the legislation was not 
considered in the Senate last year and we thank Chairman Thompson for 
reintroducing the bill in this Congress. AFGE fully supports H.R. 903, 
the ``Rights for the TSA Workforce Act of 2021'' and is working toward 
its enactment.
    TSOs' lack of statutory rights is rooted in a combination of 2 
things: First, a desire by the Government to provide aviation security 
on the cheap; and second, a pernicious belief that worker rights are 
somehow contrary to homeland security. TSA apparently bases its 
personnel policies on both notions even though each is demonstrably 
false, and each has made it more difficult for the agency to provide 
security to the flying public. Above all else, TSA desperately clings 
to its authority under  111(d) of the Aviation and Transportation 
Security Act (ATSA) (Pub. L. 107-71).
    The footnote reads as follows:

``Notwithstanding any other provision of law, the Under Secretary of 
Transportation for Security may employ, appoint, discipline, terminate, 
and fix the compensation, terms, and conditions of employment of 
Federal Service for such a number of individuals as the Under Secretary 
determines to be necessary to carry out the screening functions of the 
Under Secretary under Section 44901 of Title 49, United States Code,'' 
(49 U.S.C.  44935 Note).

    The footnote has been interpreted by courts and administrative 
proceedings as granting TSA almost unreviewable authority over TSO 
employment rights. AFGE was the first union to file judicial challenges 
to this interpretation beginning in 2003 and has continued to do so 
ever since. Congress has never before or since granted any other agency 
head this level of authority over a group of employees, and for good 
reason.
    In the past, AFGE submitted testimony to Congress describing TSA 
working conditions as ``separate and unequal.'' TSA implemented 2 
personnel systems: One created solely for TSOs and one for all other 
TSA employees, managers included, based largely on the Federal Aviation 
Administration (FAA) personnel system that applies most of Title 5 of 
the U.S. Code.
    Over 41,000 TSOs are denied the ability to appeal adverse personnel 
decisions to an objective, outside body like the Merit Systems 
Protection Board (MSPB) or through negotiated grievance procedures. In 
contrast, like most Federal workers, TSA managers can appeal adverse 
personnel decisions (including removals) not only to the MSPB but also 
to the U.S. Court of Appeals. TSOs are subject to a cumulative 
disciplinary system unlike the progressive disciplinary system applied 
across other Federal agencies, including other Department of Homeland 
Security (DHS) components. For too long, the TSO workforce has 
performed their jobs effectively, efficiently, and with a professional 
demeanor, all the while under duress largely at the hands of TSA 
management and its inconsistent application of both discipline and 
reward.
    The Federal Aviation Administration (FAA) reauthorization in the 
115th Congress (H.R. 302) included Section 1907, Personnel Management 
System Review directing: ``the Administrator shall convene a working 
group consisting of representatives of the TSA and representatives of 
the labor organization representing security screening personnel to 
recommend reforms to the TSA's personnel management system, including 
appeals to the Merit Systems Protection Board and grievance 
procedures.'' TSA met the minimum requirements to meet but was 
unwilling to conduct any meaningful discussion of a route to MSPB and 
did not adopt meaningful changes to grievance or discipline procedures.
    The events of the past 3 years put into clear focus the dire need 
for legislation to protect TSOs' basic rights at work and even their 
lives. Not only did TSOs work without pay throughout the 2018-2019 
Government shutdown; a year later, as many were still struggling to get 
back on their feet financially, they were hit swiftly and pervasively 
by the COVID-19 pandemic.
                           covid-19 pandemic
    Every action taken by TSA to protect the workforce during the 
pandemic has been a hard-fought struggle between management and TSOs. 
Early in the pandemic, supervisors pushed back when TSOs requested to 
wear masks and face shields and were slow to develop safety protocols. 
When masks and face shields were permitted, TSOs had to supply them 
themselves. Later, TSA managers were quick to discipline TSOs who 
didn't comply with those same personal protective equipment (PPE) 
requirements. Leave policies were developed, but unevenly applied; 
while TSOs in one airport may have been granted weather and safety 
leave after close exposure to officers who developed COVID-19, TSOs in 
another airport were disciplined, considered absent without leave for 
taking leave under the same circumstances.
    Make no mistake--the uncertain and unequal application of leave and 
illness policies throughout the pandemic is only the most recent but 
surely the most egregious evidence this agency must no longer 
administer its own separate and unequal personnel management system.
    To date, TSA has reported more than 7,700 cases of COVID among its 
employees, almost entirely in the screening workforce, including 16 
deaths. TSA could not have prevented all of the COVID-19 cases, but it 
could have taken faster action to protect its workforce. For months, 
TSA Administrator David Pekoske refused to require that passengers and 
other members of the public wear masks to go through security 
checkpoints.
    To make matters harder on part-time TSOs, hours were cut to only 20 
hours per week rather than 25-30 hours and until the Chairman of this 
committee insisted, TSA had stopped providing new part-time employees 
hired after October 2019 the full Government share of their health care 
premium. The simple truth is rights at work are not a luxury or a 
benefit, but absolutely essential when employers have the power to make 
life and death decisions about workers' safety.
                         tsa personnel policies
    TSA's application of its authority granted by the ATSA footnote has 
created a personnel system that repeatedly leads to dismal workplace 
satisfaction rankings. We know from the results of the most recent 
``Best Places to Work in the Federal Government'' survey that TSA 
employees failed to rank the agency above the lowest quartile (25 
percent) in any category with the exception of training. In addition to 
TSA coming in dead last on satisfaction with pay, TSA employees 
provided remarkably low scores on the fairness of leadership, matching 
employee skills to the mission, performance-based rewards and 
advancement, and teamwork and innovation. The low marks of this survey 
correlate with concerns AFGE has raised for the past 19 years.
    Nineteen years of TSA running its own personnel management system 
has devolved into a toxic work environment where supervisors and 
managers foster a culture based on bullying, intimidation, and fear. 
TSOs work under the constant threat of being written up, of being 
disciplined unfairly and inconsistently, and never feeling respected. 
TSOs who file complaints, formally or informally, are punished and 
alienated. Their coworkers look the other way because they fear they 
will be next. Under this culture, there is no path to report 
harassment, mistreatment, or even unsafe working conditions. There is 
no meaningful way to appeal the actions of managers.
                                  pay
    I began this testimony by noting that TSA cannot provide aviation 
security on the cheap. Because TSA has abused its authority under the 
ATSA footnote, and used it to shortchange its employees, the agency has 
actually made it harder to recruit and retain the career, professional 
workforce the public demanded following the terrible events of 9/11. 
TSA administrators have continued to disappoint the TSO workforce by 
failing to request additional funding from appropriators for a 
meaningful pay increase for long-term TSOs. Federal Security Directors 
(FSDs) have used public resources to communicate agency views intended 
to turn the TSO workforce against the General Schedule (GS) locality 
pay system and suggest pay is better under the current TSO-specific 
system, yet they tell Congress they can't migrate to the GS locality 
system because they don't have enough funding to do so. It cannot be 
simultaneously too expensive to provide fair pay and disadvantageous 
for the workers to provide fair pay. TSA management cannot have it both 
ways.
    The average starting salary for TSOs is about $35,000, just under 
$17 an hour. A newly-hired TSO begins in the D pay band and is required 
to complete a 2-year probationary period during which time they can be 
disciplined or terminated for any reason without due process. At the 
completion of probation, TSOs automatically receive the E pay band in 
addition to any Employee Cost Index (ECI), an annually-recommended 
Federal civilian employee pay increase. The majority of TSOs are then 
stuck at the E pay band for their entire career. In the event a TSO can 
secure a promotion to a Lead TSO, they go up a half step to an E2 and a 
very few will advance to a one full level to the F pay-band. But the 
outlook from there is grim. TSA eliminated the ability of bargaining 
unit employees to be promoted to a G pay band position in 2017.
    If TSOs score high enough on the Transportation Officer Pay System, 
or TOPS evaluation, they may be eligible for a one-time bonus or a 
slight increase in salary at the subjective discretion of their 
manager. The TOPS ``payout''--a combination of a percentage pay raise 
and bonus depending on evaluations and other factors--varies from year 
to year subject to the administrator's instructions. Last year, the 
TOPs award for the highest rating of 5--achieved excellence or 4--
exceeds expectations was a 1-percent pay increase. If you scored a 3--
achieved expectations, you received no pay increase. These inconsistent 
and miniscule performance-based increases, particularly when they are 
not combined with a time-in-grade increase, do very little to retain or 
reward the front-line aviation security workforce that protects us 
around the clock. TSA recently layered in a Model Officer Program that 
recognizes only the top 5 percent of the entire screening workforce, 
noting that any associated pay is subject to availability of funds. In 
its guidelines it advises: ``Model Officer Recognition is granted at 
management's discretion. Meeting the minimum criteria does not 
guarantee or create an entitlement to a Model Officer Monetary/Non-
Monetary Award and/or a Model Officer Pay Increase.'' Under this 
guidance, a TSO has no means of knowing whether meeting the 
requirements will mean anything. So the question arises: What is the 
point of this program?
    Any bonuses a TSO may earn under TOPS are not included in TSO base 
salaries and are not part of the calculation for their retirement under 
Federal Employee Retirement System. TSOs' lack of opportunity for 
salary increases today has long-term financial consequences--less 
retirement income later in life. By contrast, most Federal workers have 
been compensated under the GS locality pay system, which has been 
reformed and updated many times since its inception in 1949. The GS 
locality pay system includes step increases at various intervals to 
employees with satisfactory performance. When there is not a pay 
freeze, they also receive annual salary adjustments that include a 
Nation-wide and locality component. These pay adjustments are based on 
objective market data from the Bureau of Labor Statistics and mirror 
the size and direction of salaries in the private sector and State and 
local government. The GS pay system is notable for the absence of pay 
discrimination; people in the same job with the same level of 
performance receive the same salaries regardless of race, gender, age 
or other attributes unrelated to the job they do for the American 
people.
    Administrator Pekoske has advertised the Career Progression Program 
as a career path for TSOs that will both improve retention as TSOs move 
up the ladder and a means to improve pay. AFGE appreciates 
Administrator Pekoske's intentions, but the Career Progression Program, 
which TSA did not negotiate over with the Union, does not meet those 
goals. The Career Progression Program only assists new-hires in 
receiving pay increases to an E-band level more quickly than before but 
does absolutely nothing for long-term employees.
    When AFGE testified before this committee about the need for title 
5 collective bargaining rights and the GS pay scale 2 years ago, it was 
on the heels of the release of 2 reports: The March 29, 2019 DHS Office 
of Inspector General Report (OIG), TSA Needs to Improve Efforts to 
Hire, Retain, and Train Its Transportation Security Officers and a May 
2019 Blue Ribbon Panel report TSA commissioned a private company to 
conduct, ``Human Capital Service Delivery Evaluation.'' Both reports 
acknowledged the high turnover and low pay TSOs face, noting that TSOs 
are paid only a third of what Management, Administration, and 
Professional (MAP) pay is at TSA. The Blue Ribbon panel wrongly 
concluded that TSA should not utilize the GS pay system. It 
acknowledged that under the GS system, it takes a full 18 years to 
reach step 10 in a pay grade without recognizing that in TSA's pay band 
system, it takes 30 years to reach the top of the pay band, essentially 
the length of a full career.
    The DHS OIG report recommended additional funding is needed to fill 
program positions. TSA has also promoted a new On the Job Trainers 
(OJTs) program as a way for officers to receive extra incentive pay but 
these opportunities are very limited and do not change an officer's 
salary. Federal Security Directors (FSDs) and other management 
officials determine how many OJTs they need depending on operational 
need and they decide who gets to be an OJT.
    Many airports are located near major metropolitan areas with high 
costs of living. Many TSOs cannot afford to rent a 2-bedroom apartment 
or purchase a car on their salaries. At airports such as San Jose 
International in Silicon Valley, TSA has offered TSOs recruitment and 
retention bonuses to maintain its workforce. At the Seattle-Tacoma 
International Airport, TSA was required to raise TSO pay in response to 
the city's implementation of a minimum wage increase to $15 per hour, 
or about $31,000 per year. TSA currently identifies 89 TSO essential 
job functions in its current TSO medical guidelines and has established 
rigorous standards for employment. TSOs often seek employment at other 
Federal agencies. The advantages of seeking employment with another 
Federal agency are substantial for a TSO: A likely significant pay 
increase, clear and achievable career progressions, full civil service 
rights under Title 5, and the ability to maintain their commitment to 
public service. TSA is investing money to hire, train, and employ an 
officer only to see them leave for higher-paying private employment or 
go to another Federal agency covered by the GS pay system.
    Finally, it is important to note that high-ranking TSA officials 
are paid under the Title 5 guidelines for the Senior Executive Service 
and the agency has sought special discretion to increase the pay of 
upper management. The 100 highest-paid TSA employees all earn over 
$175,000 annually. By pointing out the disparity in pay between TSOs 
and the top brass at the agency we make no assumption that the 
executive pay is unearned. AFGE does find it highly inappropriate that 
the pay disparity between TSA management and TSOs is comparable to the 
pay difference of Walmart store managers and salesclerks.
                   tso retention issues and staffing
    The findings of the DHS OIG report 2 years ago confirmed AFGE's 
warnings that TSA has become a revolving door for the TSO workforce at 
many airports. The trend continues and it is even clearer that TSA's 
personnel policies are directly linked to retention problems. 
Throughout 2020 as the COVID-19 pandemic raged and travel declined 
precipitously, TSA allowed the TSO workforce to drop from about 46,000 
to fewer than 41,000 officers. With travel resuming, TSA is again 
hiring. As a cautionary note during this time of hiring and training, 
AFGE has observed that although TSOs at checkpoints are not OJTs, they 
assist the many newly-hired TSOs as they learn their duties and have 
noted that many appear ill-prepared.
    TSO schedules at some airports are constantly manipulated to meet 
airline arrivals and departures. As a result, TSOs have little 
stability in their schedules. Women TSOs have even less flexibility 
because they make up a smaller portion of the workforce but must be 
available on every shift and every checkpoint for pat-downs. Because 
there is little room in TSA's staffing decisions, at some airports 
nursing mothers report managers expect them to express breast milk only 
at specific designated times and are refused breaks as needed. Non-
private expressing areas are often too far away for the time allotted. 
Other TSOs have reported denial of bathroom breaks resulting in 
unnecessary and demeaning accidents.
        many tsos perceive tsa to be a hostile work environment
    The results of the DHS OIG report on TSA recruitment and retention 
of its TSO workforce matched AFGE's Freedom of Information Act (FOIA) 
data which revealed that over a 10-year period between 2008 and 2018, 
TSA replaced its approximate 44,000 workforce. TSO duties are not easy. 
The initial responsibility for the safety of the flying public is 
assigned to TSOs screening passengers and baggage. Dealing with 
passengers can be stressful and physically taxing, however, AFGE 
represents thousands of Federal employees with stressful and taxing 
positions. The difference is that Federal employees outside of TSA 
represented by AFGE do not work under the smothering cloak of 
unfairness described by their TSO brothers and sisters.
    Under TSA's interpretation of ATSA, the agency makes and breaks the 
rules of employment. As noted above, TSA reinvents pay standards 
annually. Airport checkpoints are often the fiefdoms of TSA management, 
reducing the likelihood of consistency between checkpoints or baggage 
screening areas. All levels of TSA management exercise extensive 
discretion in supervision and discipline of TSOs. Much of it is 
subjective and has devolved into a culture of harassment and 
intimidation that can only end with a permanent end to the separate and 
unequal personnel management system.
    Below are some of the situations described by TSOs in the daily 
performance of their duties.
Male TSO, Washington State
    J has been a TSO for over 5 years. When he returned from surgery 
unrelated to vision last June he was told to take a color vision test. 
He was told he failed the test, but not provided the results. He was 
sent for a second test at a chain optometry store. He was told he 
failed that too, but TSA refused to provide the results of either test. 
He was stunned because in the past he had worked in color analysis for 
a makeup company. He went to his own optometrist and to another 
location of the chain optometry store. He passed both tests and took 
them to his employer. He has taken multiple bag screening tests since 
then and has passed with 90 percent but was still proposed for removal. 
He appealed and to date, neither he nor the in-house Office of 
Professional Responsibility Appeals Board has received the color vision 
test results. He was told he would be reinstated but has again been 
told he is not medically fit for duty. Under MSPB, his reinstatement 
would not have been arbitrarily denied by the agency.
Female TSO, New York
    S worked at TSA for almost 2 years. During that time, she endured 
harassment from her manager--this included reference to anatomy size 
and uncomfortable requests to close the door to his office. She was 
also subjected to repeated intimidation by her supervisor. Rather than 
providing instruction on a new COVID-related standard operating 
procedure, the supervisor set her up so others could watch her fail and 
made it a joke. When a passenger complained about communication with 
her, the on-site supervisor asserted the situation did not happen, but 
she still got written up by a supervisor who didn't see it. Her 
supervisor engaged in a frequent barrage of threats to ``write her 
up.'' When she turned to coworkers to corroborate what they witnessed 
they said they wouldn't back her up because of fear for their own jobs. 
There is no recourse, no accountability.
Female TSO, Pennsylvania
    M has been a TSO for almost 9 years. She works full-time and as 
does her husband, but they have 2 children under 6 in daycare, and she 
still has $30,000 in student loans from college. She is the first to 
volunteer to pick up every extra shift she can get, often working 7 
o'clock AM to 9:30 PM or 11 o'clock AM to midnight and giving up most 
of her days off. Because of the low pay, she has sacrificed work-life 
balance and time with her family and says they barely make ends meet.
Female TSO, Maine
    N received an ``employee of the month'' designation 10 months into 
her first year of service. Her Mid-Year performance appraisal rated her 
``Exceeded Expectations in all Competencies and Goals'' a few months 
later. One week after that excellent appraisal, she informed TSA that 
she was pregnant. Over the next several weeks, she experienced troubles 
with her pregnancy and used accrued sick leave, receiving TSA 
Management's approval of each and every one of her sick leave requests. 
Three months later, she was fired and has a pending EEOC suit. This was 
an excellent employee who loved her job.
Female TSO, Arizona
    J, a TSO for 8 years, was summoned for a random breath blood 
alcohol test. She had not been consuming alcohol and had no reason to 
be concerned with the test. However, she had trouble with the equipment 
and the ability to blow sufficient air into the machine. She was 
terminated because it was determined she had no medical reason to 
provide an insufficient sample. She was never given due process to 
prove she has never reported for work impaired by alcohol and was not 
impaired at the time of the random test. She appealed a denial of 
unemployment benefit claims and won that appeal because the State found 
that the employer did not meet the burden of proof that she was 
disqualified for misconduct.
    These and other responses from across the country were strikingly 
similar in their details: Unfair treatment, no remedy when reported to 
management, and almost certain retaliation.
    Unwarranted disciplinary actions against TSOs present an 
opportunity for badly-trained and poorly-managed supervisors to 
victimize TSOs. In 2018, TSA modified their table of penalties for the 
TSO workforce based on a fundamental misunderstanding of the concept of 
progressive discipline. Progressive discipline provides increased 
penalties for particular types of conduct. Under TSA's version of 
progressive discipline, for example, a tardy will count as the first 
offense, an unrelated uniform violation as a second offense that 
includes a more severe disciplinary action which could lead to a 
proposed removal even though a tardy and a uniform violation are 
completely different forms of misconduct. There is little incentive to 
the employee to improve behavior or misconduct.
    Each disciplinary action remains in the TSO's personnel files for 2 
years. The mandatory 2-year presence of a previous disciplinary action 
in a personnel file negatively affects almost anything a TSO attempts 
to do at the agency. TSOs with disciplinary actions in their personnel 
files cannot transfer to another airport and face disqualification from 
the Career Progression program. Any corrective action, discipline, or 
sick leave restriction during the 12 months prior or during the OJT 
assignment is a disqualification and eliminates a large score of 
employees from receiving the highest TOPS rating.
    The unrelentingly harsh disciplinary policies of TSA do not create 
a work environment that fosters workforce performance growth and 
improvement. A disciplinary action grinds a TSO's forward progress to a 
halt for at least 2 years. It is difficult for TSOs to clear their 
record without the right to appeal adverse personnel actions to the 
MSPB or a negotiated grievance and arbitration process.
                  the future of u.s. aviation security
    Nineteen years ago, TSOs organized the first AFGE TSA local 
indicating a clear preference for union representation. They stood up 
for the union without statutory protections of their right to organize. 
AFGE is committed to the fight for full civil service rights and 
protections for the TSO workforce. Low pay, stressful duties, and a 
sense of unfairness create a trifecta for low morale and hopelessness 
that impedes the ability of TSOs to boldly serve as the front line of 
U.S. aviation security.
    TSOs have stepped up and reported for duty through the lengthy 
Government shutdown and the COVID-19 pandemic. Many have dedicated 
themselves to this career protecting the traveling public and now they 
are hoping their dedication will be met with respect, basic rights, and 
fair pay.
    We appreciate the continued advocacy of Chairman Thompson and 
Chairwoman Watson Coleman in support of title 5 rights for the TSO 
workforce. Their legislation, H.R. 903, the ``Rights for the TSA 
Workforce Act of 2021,'' has well over 150 co-sponsors in the House. 
When enacted into law this legislation will provide permanence and 
predictability of the statutory rights and protections of title 5 of 
the U.S. Code, the fairness of negotiated grievance and arbitration 
provisions, and MSPB appeal rights lacking in the work lives of the TSO 
workforce.
    Thank you for holding this hearing and for the opportunity to speak 
on behalf of the TSO workforce represented by AFGE. I am prepared to 
answer any questions the subcommittee may have.

    Mrs. Watson Coleman. Thank you, Mr. Kelley. Thank you for 
your testimony.
    I now recognize Ms. Chaney to summarize her statement for 5 
minutes.

 STATEMENT OF JOI CHANEY, SENIOR VICE PRESIDENT FOR POLICY AND 
 ADVOCACY AND EXECUTIVE DIRECTOR, WASHINGTON BUREAU, NATIONAL 
                          URBAN LEAGUE

    Ms. Chaney. Thank you, Chairwoman Watson Coleman, Ranking 
Member Gimenez, Committee Chairman Thompson, and Members of the 
subcommittee. Thank you for the opportunity to testify today.
    My name is Joi Chaney, and I serve as senior vice president 
of policy and advocacy and executive director of the Washington 
Bureau for the National Urban League. I bring you greetings on 
behalf of Marc Morial, our president and CEO.
    Before I continue, I must correct the record that I was not 
chair of the EEOC. I worked for the chair of the EEOC, and I 
loved every minute of it, as I do my current job.
    The National Urban League is a historic civil rights 
organization dedicated to providing economic empowerment, 
educational opportunities, and the guarantee of civil rights 
for the underserved in America.
    Of the Nation's 10 busiest airports, the Urban League has 
an affiliate in 9 and a presence in all 10 cities. I appreciate 
the opportunity to share the Urban League's perspectives on the 
need for the rights for the Transportation Security 
Administration Workforce Act of 2021.
    If this is signed into law, TSA jobs will have the 
potential to offer pathways to stable employment with benefits, 
and a pathway to the middle class in urban and rural 
communities across this Nation. Thus, it is vital that TSA 
workers are protected in the workplace and compensated fairly.
    The TSA work force is diverse and reflects the communities 
they serve. Nation-wide, 55 percent of the 60,000 workers at 
the TSA are people of color. Black Americans make up about 11 
percent of the overall population, but nearly triple that of 
transportation screeners.
    Latino and Asian Americans also make up a larger share of 
the transportation security work force than their share of the 
U.S. population. Within the Department of Homeland Security, 
TSA workers of color have a higher concentration at TSA than 
they do at DHS overall.
    The TSA also employs a higher concentration of women 
workers than DHS broadly. To put it plainly, the TSA is driving 
the diversity and inclusion in our country's Homeland Security 
work force, and, yet, transportation security workers are not 
afforded the protections and the benefits of their counterparts 
elsewhere in the Department of Homeland Security or the Federal 
Government at large. It makes you wonder.
    The hard-working officers of TSA screen more than 2 million 
passengers each day at nearly 440 airports Nation-wide. 
Transportation security officers, or TSOs, are front-line 
workers who show up to keep our country safe through Government 
shutdowns, when they are not being paid, and through the 
pandemic, when their own health is at risk. Yet, they lack the 
rights and protections afforded their peers in the Federal 
Government under Title 5 of the U.S. Code.
    TSA screeners do not have the same protections to 
collectively bargain. Their pay scale lags behind that of other 
agencies in the Government, and they are missing out on Family 
and Medical Leave Act protections available elsewhere in the 
Government.
    Potential whistleblowers in the TSA are not protected. 
Without access to an objective outside body like the Merit 
Systems Protection Board, or a negotiated grievance procedure, 
TSA officers are denied the ability to appeal adverse personnel 
decisions in the same way as other Federal employees.
    Unlike the progressive disciplinary system applied across 
other Federal agencies, including other DHS security 
components, TSOs are subject to a cumulative disciplinary 
system.
    In addition to these disparities in statutory protections, 
the TSA ranked the lowest out of all Federal agencies in 
employee satisfaction with pay. TSA employees scored their 
employer poorly on the fairness of leadership, matching 
employee skills to the mission, performance-based awards and 
advancement, and teamwork and innovation.
    This is no way to treat anyone, certainly not a work force 
that reflects the diversity of this Nation, or one that places 
itself at risk daily on our behalf.
    As we know, people of color and women face unfair barriers 
to pay equity and workplace protections. One cause of this 
disparity is that people of color and women are often 
overrepresented in lower-paying professions that yield fewer 
benefits and fewer protections.
    So, removing barriers to success and increasing protections 
to match those of other Federal workers, including those in 
management at TSA, is absolutely a matter of equity that is 
overdue and should be addressed once and for all.
    TSOs should have the same fair pay, union rights, and 
treatment as other Federal workers. The Rights for the 
Transportation Security Administration Workforce Act of 2021 
would codify these rights, and give long overdue workplace 
protections to TSO officers.
    The Urban League supports this effort, and thanks you for 
your focus on the issue, as well as TSA officials and workers. 
Thank you and let me know if you have any questions.
    [The prepared statement of Ms. Chaney follows:]
                    Prepared Statement of Joi Chaney
                              May 4, 2021
    Chair Watson Coleman, Ranking Member Gimenez, Committee Chairman 
Thompson, and Members of the Subcommittee on Transportation and 
Maritime Security, thank you for the opportunity to testify today. My 
name is Joi Chaney, and I serve as senior vice president of policy and 
advocacy and executive director of the Washington bureau for the 
National Urban League. I bring you greetings on behalf of Marc Morial, 
our president and CEO, who could not be with us today but who supports 
this testimony and applauds the committee in its work.
    The National Urban League is an historic civil rights organization 
dedicated to providing economic empowerment, educational opportunities 
and the guarantee of civil rights for the underserved in America. 
Founded in 1910 and headquartered in New York City, the National Urban 
League has 90 affiliates serving 300 communities in 36 States and the 
District of Columbia, providing direct services that impact and improve 
the lives of more than 2 million people Nation-wide.
    Of the Nation's 10 busiest airports, the Urban League has an 
affiliate in 9 and a presence in all 10.\1\ One of those cities is 
Orlando, FL, where I was born and raised. I also spent several years in 
the Office of the Chair at the U.S. Equal Employment Opportunity 
Commission during the Obama administration and have dedicated much of 
my career to promoting equity in employment for women and persons of 
color.
---------------------------------------------------------------------------
    \1\ https://www.statista.com/statistics/185679/passengers-boarded-
at-the-leading-25-us-airports/.
---------------------------------------------------------------------------
    I appreciate the opportunity to share the Urban League's 
perspective on the need for the Rights for the Transportation Security 
Administration Workforce Act of 2021. Ensuring that transportation 
security officers--whose service helps keep us safe and our economy 
moving--receive the same rights and protections as other Federal 
workers is important to the mission of the Urban League and my personal 
mission. Transportation Security Administration (TSA) jobs have the 
potential to offer pathways to stable employment with benefits and the 
middle class in urban and rural communities across this Nation. Thus, 
it is vital that TSA workers deserve to be protected in the workplace 
and compensated fairly.
    What Members of the subcommittee have likely noticed while flying 
to and from your home districts, including this week, is that the TSA 
workforce is diverse and reflects the communities they serve. For the 
most part, these are not jobs that can be outsourced. They are your 
constituents. Nation-wide, 55 percent of the 60,000 workers at the 
Transportation Security Administration are people of color. Black 
Americans make up about 11 percent of the overall population but nearly 
triple that (32.7 percent) of transportation screeners.\2\ Latino and 
Asian Americans also make up a larger share of the transportation 
security workforce than their share of the U.S. population. Within the 
Department of Homeland Security (DHS), the Transportation Security 
Administration makes up a quarter of the workforce and workers of color 
make up about 45 percent of all employees, so TSA's workers of color 
have a higher concentration at TSA than they do at DHS overall.\3\
---------------------------------------------------------------------------
    \2\ https://datausa.io/profile/soc/transportation-security-
screeners#-demographics.
    \3\ https://www.fedscope.opm.gov/.
---------------------------------------------------------------------------
    The Transportation Security Administration also employs a higher 
concentration of women workers than DHS broadly.\4\ Across the 
Department of Homeland Security, only 30 percent of employees are 
women.\5\ At the Transportation Security Administration, women make up 
over 41 percent of employees.\6\
---------------------------------------------------------------------------
    \4\ https://www.tsa.gov/sites/default/files/resources/
tsaatglance_factsheet.pdf.
    \5\ https://pages.fiscalnote.com/rs/109-ILL-989/images/CQ-Womens-
Representation.pdf?aliId- 
=eyJpIjoiNU5NajVDK3I2T3d1NFZqKyIsInQiOiJTS1BQbGxqQloxaXprXC9NXC9UT- 
jRzVEE9PSJ9.
    \6\ https://datausa.io/profile/soc/transportation-security-
screeners#demographics.
---------------------------------------------------------------------------
    To put it plainly, the Transportation Security Administration is 
driving the diversity and inclusion of people of color and women in our 
country's homeland security workforce. And yet, transportation security 
workers are not afforded the protections and benefits of their 
counterparts elsewhere in the Department of Homeland Security or the 
Federal Government at large.
    As President Biden noted in his Joint Address to Congress last 
week, people of color and women face unfair barriers to pay equity and 
workplace protections. Due to historic injustices such as slavery, 
segregation, redlining, unequal access to Government programs, and on-
going institutionalized and systematic discrimination, Black men on 
average make 87 cents on a White man's dollar. Black women face an even 
larger pay gap on average, making only 63 cents for every dollar earned 
by a White man. At the same time, 80 percent of Black mothers are the 
sole, co-breadwinners or primary breadwinners for their households.\7\ 
These trends track for the Latino community as well. One cause of this 
disparity is that people of color are often overrepresented in lower-
paying professions that yield fewer benefits and fewer protections. So, 
removing barriers to success and increasing protections to match those 
of other Federal workers in the Transportation Security Administration, 
which employs a higher proportion of people of color and a higher 
proportion of women than the Department of Homeland Security overall, 
is absolutely a matter of equity that should be addressed urgently.
---------------------------------------------------------------------------
    \7\ https://www.aauw.org/resources/article/black-women-and-the-pay-
gap/.
---------------------------------------------------------------------------
    The hard-working officers of TSA screen more than 2 million 
passengers each day at nearly 440 airports Nation-wide. Transportation 
security officers (TSOs) are front-line workers who show up to keep our 
country safe through Government shutdowns when they are not being paid 
and during the COVID-19 pandemic when their own health is at risk. 
Since the novel coronavirus hit our shores, over 7,810 TSA employees 
have contracted the virus.\8\ At least 16 have died as a result. But 
these dedicated Federal workers continue to clock in and perform their 
duties in service to their country and communities.
---------------------------------------------------------------------------
    \8\ https://www.tsa.gov/coronavirus.
---------------------------------------------------------------------------
    Despite the importance of their role and the professionalism with 
which they continue to bring to their work, transportation security 
officers face inequities compared to other Federal employees. They lack 
the rights and protections afforded to their peers in the Federal 
Government under Title 5 of the U.S. Code. TSA screeners do not have 
the same protections to collectively bargain. Their pay scale lags 
behind that of other agencies in the Government and they are missing 
out on the Family and Medical Leave Act protections available elsewhere 
in the Government. Potential whistleblowers in the Transportation 
Security Administration are not protected. Without access to an 
objective outside body like the Merit Systems Protection Board (MSPB) 
or negotiated grievance procedures, transportation security officers 
are denied the ability to appeal adverse personnel decisions in the 
same way as other Federal employees. And unlike the progressive 
disciplinary system applied across other Federal agencies, including 
other Department of Homeland Security components, transportation 
security officers are subject to a cumulative disciplinary system.
    In addition to these disparities in statutory protections, results 
from the ``Best Places to Work in the Federal Government'' survey \9\ 
consistently show that TSA employees rank the Transportation Security 
Administration in the lowest quartile (25 percent) in all categories 
except training. In addition to the Transportation Security 
Administration being ranked the lowest out of all Federal agencies in 
employee satisfaction with pay, TSA employees scored their employer 
poorly on the fairness of leadership, matching employee skills to the 
mission, performance-based rewards and advancement, and teamwork and 
innovation.
---------------------------------------------------------------------------
    \9\ https://bestplacestowork.org/rankings/detail/HS10.
---------------------------------------------------------------------------
    Our front-line workers in the Transportation Security 
Administration, who are disproportionately people of color, are facing 
added barriers to maintaining and excelling in their roles because the 
Federal Government has not affirmed their workplace rights in the same 
way as their peers working in other Government agencies.
    It is past time this disparity is addressed. Transportation 
security officers should have the same fair pay, union rights, and 
treatment as other Federal workers. The Rights for the Transportation 
Security Administration Workforce Act of 2021 would codify these 
rights, and give long overdue workplace protections to TSA officers, 
including: Family and Medical Leave Act protections; expanded 
collective bargaining rights; the right to appeal adverse personnel 
decisions before the Merit Systems Protection Board; whistleblower 
rights; and better pay and benefits (including pay under the General 
Services wage system). The Urban League supports this effort. Thank you 
for your focus on this issue, I look forward to answering any questions 
that Members of the subcommittee have.

    Mrs. Watson Coleman. Thank you very much for your 
testimony.
    Dr. Kelley, excuse me for not giving you your due 
recognition as both reverend and doctor, Mr. Kelley.
    Mr. Kelley. It does not matter. OK? Thank you so much.
    Mrs. Watson Coleman. Thank you. I will now recognize Mr. 
Warrick to summarize your statement, sir, for 5 minutes.

 STATEMENT OF THOMAS S. WARRICK, NONRESIDENT SENIOR FELLOW AND 
  DIRECTOR OF THE FUTURE OF DHS PROJECT, THE ATLANTIC COUNCIL

    Mr. Warrick. Thank you very much, Chairwoman Watson 
Coleman, Ranking Member Gimenez, and Members of the 
subcommittee. Thank you for the opportunity to testify in 
support of H.R. 903. I am the director of the Atlantic 
Council's Future of DHS Project. I served at DHS from 2007 to 
2009, the last 10\3/4\ years as a member of the Senior 
Executive Service. I have served under Presidents of both 
parties, and under 8 secretaries and acting secretaries of 
Homeland Security.
    I am proud to have served alongside the men and women of 
TSA, who are some of the finest officers serving our Nation. We 
need to honor TSA's service during the COVID-19 pandemic when 
TSA officers have been on the front lines every day. They 
deserve our recognition and respect for what they do.
    Madam Chair, there is much about DHS that is good and 
important, but DHS has some serious challenges that need to be 
addressed. One of these is DHS's consistently low morale. This 
diminishes the effectiveness of the work force, lowers employee 
retention rates, increases costs to hire and train new people.
    When DHS needs to replace experienced officers with new 
people, this risks the security of the American public. Some of 
us are old enough to remember that in the 1970's the U.S. 
military had morale problems. Fixing this became a National 
priority. Today, we need to treat morale at DHS with the same 
sense of urgency.
    If I could ask the clerk to put up on screen figure 1 for 
my testimony. Let me talk about that briefly. This data comes 
from the Office of Personnel Management's Federal Employee 
Viewpoint Survey. Figure 1 shows overall morale in each Cabinet 
department.
    Other surveys shows that DHS employees are strongly 
dedicated to the mission, but since 2010, DHS morale has been 
consistently lower than any other large Cabinet department.
    Success in turning DHS's morale around is not only 
possible, it has happened many times at the component level.
    If I could ask the clerk to show figure 5. My testimony 
gives 3 success stories: The Office of Intelligence and 
Analysis under Frank Taylor; the Secret Service under Director 
Tex Alles; and what you see here--Immigration and Customs 
Enforcement between 2015 and 2017, under Sarah Saldana when 
morale went up by 20 points.
    So let me now turn to TSA. TSA's morale overall is the 
lowest of the large components of DHS. In 2019, out of 420 sub 
agencies in the Federal Government, TSA ranked 398 out of 420.
    If I can ask the clerk to show figure 6.
    As this table shows, 30 percent of all DHS employees work 
at TSA, more than any other part of DHS.
    Madam Chair, we have done the math. If TSA's morale scores 
increased by 20 points as they did at ICE under Sarah Saldana, 
that alone would mathematically lift DHS out of last place. 
That is how important morale is at TSA to improving morale at 
DHS as a whole.
    There are 3 categories where TSA stands out, and in a 
negative way: Pay, promotions and career advancement, and 
employee empowerment. H.R. 903 will help address all 3.
    If I could ask the clerk to show figure 7. The most 
striking problem at TSA is low pay. TSA is shown in the red 
line. As someone once said, TSA right now is competing for 
talent against Amazon fulfillment centers, and losing.
    Let me ask the clerk to show figure 8. TSA also has 
problems in how employee performance is evaluated, and how its 
officers are promoted. H.R. 903 would force TSA to address 
both,
    Let me ask the clerk to show figure 9. There are 3 
important questions TSA employees were asked, if we could look 
at figure 9, please. Thank you. Our DHS employees were asked, 
are promotions based on merit? Are steps taken to deal with 
poor performers? Can you get a better job in your organization? 
TSA, in each case shown in red, is the lowest, or among the 
lowest, of all large DHS components.
    We have to conclude from this, Madam Chair, TSA's current 
pay and promotion system simply is not working, and H.R. 903 
will be a forcing function to enable DHS and TSA to address 
these problems.
    There is only one improvement I can think of to mention 
here. TSA does need to retain the ability to issue security 
directives and emergency amendments without being subject to 
delays. So, I would recommend a short, tightly-focused 
additional provision so that nothing in the bill would delay 
TSA from taking necessary or urgent actions for a short time to 
protect the traveling public.
    This should not be open-ended or indefinite. Eventually, 
all things should be subject to negotiation under the 
collective bargaining laws governing civil service.
    I would refer you to my written testimony for some other 
comments, and thank you very much for your attention, and I 
will be happy to answer any questions. Thank you.
    [The prepared statement of Mr. Warrick follows:]
                Prepared Statement of Thomas S. Warrick
                              May 4, 2021
    Madame Chair, Ranking Member Gimenez, and Members of the 
subcommittee, thank you for the opportunity to testify in support of 
H.R. 903, The Rights for the TSA Workforce Act of 2021. I am currently 
the director of the Atlantic Council's Future of DHS Project, which has 
been working since April 2020 to improve the Department of Homeland 
Security (DHS). I served from August 2007 to June 2019 at DHS, the last 
10\3/4\ years as a member of the Senior Executive Service at DHS 
Headquarters, under both Democratic and Republican presidents and 8 
Secretaries and Acting Secretaries of Homeland Security.
    I'm proud to have served alongside the men and women of the 
Transportation Security Administration, who are some of the finest 
officers serving our Nation. They help secure our transportation 
infrastructure--air travel, railroads, and pipelines that bind our 
country together and keep it running. They deserve your support.
    Along with the other women and men of DHS, TSA's people help keep 
the United States secure from non-military threats, including 
terrorism, COVID-19, hostile nation-states like Russia, China, and 
Iran, and the long-term threat to lives and infrastructure from climate 
change and extreme weather.
    We particularly need to honor the service of the people of TSA 
during the COVID-19 pandemic, when TSA officers have been on the front 
lines every day. Some have lost their lives to COVID-19. The officers 
of TSA deserve our deepest recognition and respect for all that they 
have done.
    Madame Chair, there is much about DHS that is good and important, 
but DHS has some serious challenges that must be addressed if DHS is to 
succeed in its missions to protect the American people. One of these 
challenges is DHS's consistently low morale. Low morale diminishes the 
effectiveness of the workforce, lowers employee retention rates, and 
increases costs to hire and train new people. By failing to keep good 
people on the job, low morale at DHS risks the security of the American 
people when good people leave to take other jobs elsewhere.
    Some of us remember when the U.S. military had morale problems in 
the 1970's. Congress, the Department of Defense, and the American 
people treated this as a National priority. Today, we need to treat 
morale at DHS with the same sense of urgency.
    My testimony today is going to be a data-rich discussion, so I want 
to tell you where most of my data come from. Every year, the Office of 
Personnel Management fields the Federal Employee Viewpoint Survey 
(FEVS). This is analyzed by independent experts such as the Partnership 
for Public Service, which publishes their results as the Best Places to 
Work in the Federal Government.
    I should take a moment to note the Atlantic Council's policy of 
intellectual independence. The Atlantic Council itself does not take 
positions on legislation. Views expressed are those of individual 
experts. I also want to credit the Atlantic Council's partners at 
Accenture, whose expertise helped the Future of DHS Project understand 
and analyze personnel data and management trends. Of course, 
responsibility for the conclusions is mine, as the lead author and 
director of the Future of DHS Project. Let me turn to the data.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 1 shows the overall morale score of DHS compared to other 
large Cabinet departments. Since 2010, and despite improvements in some 
years such as 2015-2017, DHS has consistently ranked lowest among large 
Cabinet departments.
    Data for 2020 are not out yet, but some departments have released 
responses for 37 of 38 questions in the 2020 survey. When you calculate 
the average score for each department on each question, and connect the 
dots for DHS with a blue line, it looks like this:
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    So in 2020, on virtually every question, DHS is once again the 
lowest, or among the lowest, of any Federal department or agency that 
has released 2020 data. DHS is not without success stories, and you 
should know that success in turning morale around in DHS is not only 
possible, it has happened many times. Let me present 3 examples before 
I turn to TSA.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 3 shows the different categories of data tracked by the 
analysts at the Partnership for Public Service. As you can see, most of 
the lines move up or down together, which suggests that employees have 
an overall opinion whether their workplace is doing better or worse 
than in previous years. Individual scores tend to matter less compared 
to whether all the scores are moving up or down.
    In Figure 3, we see what happened during Frank Taylor's years as 
Under Secretary of Intelligence and Analysis (I&A). He initiated a 
major reorganization in late 2014. As often happens in the private 
sector, morale initially went down right after the reorganization. But 
by the end of his tenure, the numbers show morale was higher in 2017 
than when he started--proof that he was right that his reorganization 
would raise morale in I&A.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 4 shows how morale in the U.S. Secret Service declined 
starting in 2012 after a prostitution scandal in Cartagena, Colombia 
and other episodes revealed problems in the Service. The decline was 
halted during Secretary Jeh Johnson's tenure, then morale improved 
considerably because of efforts by Secretary John Kelly, both as 
Secretary and as Chief of Staff in the White House, and by the 
directorship of Randolph ``Tex'' Alles.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Finally, Figure 5 shows the dramatic improvement in morale at 
Immigration and Customs Enforcement (ICE) during the directorship of 
Sarah Saldana. Morale improved by 20 points in the way the Best Places 
to Work FEVS scores are calculated.
    Now let me turn to the Transportation Security Administration. 
TSA's morale overall is the lowest of the large components of DHS. In 
2019, TSA ranked 398 out of 420 subagencies across the Government 
analyzed by the Partnership for Public Service.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    It is important to bear in mind that there are more employees at 
TSA than any other component of DHS. More than 30 percent of all DHS 
employees work at TSA.
    One of the most important facts I would ask you to consider, Madame 
Chair, is that if TSA's morale scores increased by 20 points--as they 
did at ICE under Sarah Saldana from 2015 to 2017--that alone would be 
sufficient to lift DHS out of last place in the Best Places to Work 
rankings of large Cabinet departments. That's how important morale is 
at TSA to improving morale at DHS as a whole.
    In the Atlantic Council's report on the Future of DHS, we took a 
close look at what factors drive morale at TSA. We had the benefit of 
people who have led TSA, worked at TSA, worked with TSA, and advised 
TSA. And we had access to detailed data on surveys of TSA employees. 
The answer quite literally jumps off the page and shows why H.R. 903 
can be a key to unlocking TSA's potential to lead a turnaround in 
morale at DHS.
    In almost every respect, TSA's morale scores are comparable to 
other DHS components. There are 3 categories, though, where TSA stands 
out in a negative way. Morale at TSA can be improved by addressing the 
3 issues of pay, promotions and career advancement, and employee 
empowerment. H.R. 903 will help address all 3.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    As Figure 7 shows, the most striking problem at TSA is low pay. 
This shows the level of employee satisfaction with pay. TSA, on this 
and the charts following, is shown in red.
    This disparity cries out for correction. As one of our study group 
members who knew what he was talking about said, TSA is competing for 
talent against Amazon fulfillment centers--and losing. TSA's current 
pay and promotion system simply is not working.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Second, as Figure 8 shows, TSA has problems in how performance is 
evaluated and how its officers are promoted. This is something that 
H.R. 903 would force TSA to address.
    During the Future of DHS Project, we worked hard to develop a 
deeper understanding of the promotion and evaluation problems at TSA. 
Figure 9 shows the responses to 3 questions--Are promotions based on 
merit? Are steps taken to deal with poor performers? Is there a 
prospect of getting a better job in your organization?
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    In each case, TSA is the lowest or among the lowest large DHS 
components. This points to the need for major reforms to how TSA 
evaluates and promotes its people. It also highlights that Congress and 
DHS need to find a way to give TSA employees a pathway to a career in 
homeland security, even if they decide to leave TSA for careers at 
places like CBP and ICE, in much the way that service in the military, 
through the veterans' preference, can be a gateway to a long, 
successful, and satisfying civil service career.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Another historical problem area for TSA, and unfortunately other 
parts of DHS, is poor employee empowerment. Figure 10 shows the extent 
of this. Unfortunately, in recent years, other components of DHS have 
fallen down to TSA's level, rather than TSA joining the ranks of 
components like USCIS where employee empowerment, through May 2019, has 
been high.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Finally, Madame Chair, I want to dispel any doubt in the 
subcommittee's minds that TSA just has low FEVS scores all around. 
Apart from the issues of pay, evaluations, promotions, and empowerment, 
TSA's scores are comparable to other DHS components. Figure 11 shows an 
illustrative category, how employees rate their immediate supervisors.
    What this study makes clear is that if the Congress agrees with the 
idea that low morale at DHS makes it harder for DHS to do its missions, 
then improving TSA pay, evaluations, and promotions is an absolutely 
essential step that needs to be taken as soon as possible.
    Let me offer 4 other specific comments about H.R. 903, and 2 
suggestions for strengthening it.
    First, I've studied the Congressional Budget Office (CBO) scorecard 
on the version of H.R. 903 that was introduced in the 116th Congress. 
CBO scored the bill as costing $1.77 billion over 5 years, most of 
which would go for higher pay for TSA employees. According to the CBO, 
employees classified at the GS-5 level would see their pay go up by 
$900 a year, and employees classified at the GS-7 level would see their 
pay go up by about $3,400 a year. This might not be enough to bring TSA 
pay into line with what it will take to attract and retain a qualified 
workforce. Deciding how to classify TSA officers needs to be done using 
a complex set of criteria, but one of those criteria should be what 
level of pay and responsibility will be required to develop a 
professional screening workforce with retention rates comparable to 
other Federal, State, and local security and law enforcement services. 
The mission of securing America's transportation networks should be 
able to attract and retain talented individuals who want to make their 
careers in homeland security.
    Second, I recognize that, theoretically, there are other ways to 
increase TSA's pay and fix the problems with evaluations and 
promotions. Congress could simply appropriate more money. Congress and 
TSA could reform TSA's personnel practices. I have no doubt a better 
personnel system could be devised than what TSA now has. But those 
changes could have been made years ago. The fact that those changes 
were not made shows how hard it is force change into the system. H.R. 
903 has the virtue of being a forcing function. If passed and signed 
into law, it will require everyone--Congress and the Executive--to 
improve a personnel system that is not working for TSA and its 
employees.
    Third, I recognize that the Title 5 personnel rules and pay scales 
are not without their flaws and risks. As someone who spent 22 years in 
Federal service, most of that time in the civil service in 2 National 
security Cabinet departments, there are certainly aspects of the 
Federal civil service system that should be reformed and improved. But 
it would be wrong to think that flaws in the civil service personnel 
system are a reason not to apply it to TSA. Those reforms and 
improvements should be made for the benefit of all civil service 
employees, not just TSA.
    Fourth, I know there are past and possibly current officials at TSA 
who would worry that Congress' answer to a request by TSA to pay its 
employees more would be to order that cuts be made elsewhere, or that 
TSA would be told to ``make do'' with fewer officers. That risks a net 
loss in security for the United States and is not going to help the 
problem of employee morale at DHS or TSA.
    Madame Chair, in closing, let me offer 2 suggestions for ways in 
which H.R. 903 could be improved.
    First, you may need to extend the 180-day time line to classify all 
of TSA's positions. It's vitally important to get the classification of 
TSA officers right if the Nation is to benefit from H.R. 903. I would 
expect TSA would need to engage outside experts to advise in the 
process. I would hope TSA would come forward to the subcommittee with a 
carefully thought-out time table of how long it will take. I respect 
the subcommittee's desire to hold TSA's feet to the fire by drafting 
this bill with an ambitious time table. Only TSA can propose an 
alternative. I hope that discussion occurs soon.
    Second, and most importantly, it is vital that TSA retains the 
ability to issue Security Directives and Emergency Amendments to 
protect the traveling public, without being subject to delays or 
negotiations, even with its own employees. My concern is that nothing 
should limit TSA's ability to take urgent actions under its authority 
to protect the traveling public and our transportation infrastructure. 
I know from personal experience working counterterrorism issues at DHS 
that there will be times when TSA needs to take urgent action--in 
hours--to put in place rules and procedures to protect the safety of 
the public and TSA's employees. Some of these might involve matters 
that in a non-security setting would be entirely appropriate for 
collective bargaining. I would recommend a short, tightly-focused 
additional provision so that nothing in this bill would prevent the TSA 
administrator from taking necessary, urgent actions to protect the 
traveling public.
    Thank you for your attention to the important issue of morale at 
DHS and the Transportation Security Administration. I will be happy to 
answer your questions.

    Mrs. Watson Coleman. Thank you very much, Mr. Warrick. 
Finally, Mr. Jeffrey Neal.

 STATEMENT OF JEFFREY NEAL, PRINCIPAL AND FOUNDER, CHIEF HRO, 
                              LLC

    Mr. Neal. Good afternoon, Madam Chairwoman, Ranking Member 
Gimenez, and distinguished Members of the subcommittee. My name 
is Jeffrey Neal, and I am honored to appear before this 
subcommittee to discuss the vital issues regarding the work 
force of TSA.
    I was appointed as chief human capital officer for DHS in 
the early days of the Obama-Biden administration, and in 2019, 
I chaired a Blue Ribbon Panel chartered by Administrator 
Pekoske to provide a neutral third-party review of TSA's human 
capital operations, examine how policy decisions have affected 
the TSO work force, and make recommendations for improvement.
    Thus far, TSA has taken action on implementation of 43 of 
the 46 recommendations that we made, and completed action on 21 
of those recommendations.
    I share your respect for the TSA work force, particularly 
the officers who protect the flying public. The Blue Ribbon 
Panel's recommendation recognized the need to ensure they have 
competitive pay and benefits, and effective means of moving up 
in the organization, and recognition for performance that 
exceeds expectations.
    We recommended that TSA provide officers with a longevity 
pay, improve use of locality pay, and that they hire an 
experienced H.R. professional to lead the human capital 
operation. They did those things, and Ms. Bradshaw has made 
significant improvements in her role as head of H.R.
    I understand the interest in reducing the sweeping 
authority authorized by ATSA. However, repeal of the personnel 
flexibilities provided by ATSA is a double-edged sword. The 
panel actually considered that option, but we saw no evidence 
that moving to the General Schedule would have the intended 
result.
    The General Schedule, regardless of what anyone might say 
about it, was designed in 1949 for a work force of a million 
clerks. Virtually, every good Government organization, 
including the National Academy of Public Administration, in 
partnership with public service, has recommended replacing it 
with a modern pay system.
    While the bill rightly provides that no employee shall 
suffer a loss in pay, there is no guarantee that employees will 
continue to receive pay increases and benefits that they might 
otherwise have received, such as split-shift pay differentials 
and expanded leave transfer options that aren't available under 
Title 5.
    There is also no guarantee that TSOs are going to be 
classified at any particular grade level, nor is there any 
guarantee of funding if the jobs happen to be upgraded.
    Moving 50,000 employees to a different personnel system, 
even one that exists in other agencies, is a highly complex 
process that requires extensive planning. Most TSA employees, 
TSA managers, and H.R. specialists are not experienced in the 
General Schedule, and most other aspects of Title 5, nor are 
the contractors who actually do most of TSA's operational H.R. 
work.
    Likewise, not all TSA IT systems are designed to 
accommodate the General Schedule. The 6-month transition period 
in the bill does not provide adequate time to conduct necessary 
planning, system changes, and training.
    My 33 years of Federal H.R. experience tell me that rushing 
implementation of something so far-reaching almost certainly 
ensures it will be done badly, putting TSA employees and the 
TSA mission at risk.
    I urge the subcommittee to actually take this opportunity 
to consider moving beyond the General Schedule, set minimum pay 
standards for TSOs that still provide flexibility to raise pay 
when it is needed, codify a process that provides longevity pay 
increases that allows high-performing employees to move up the 
pay scale quickly.
    Allow TSA, within prescribed guidelines, to develop a pay 
system that fits the TSA work force, provides job security, 
ensures employee appeal rights, pay stability and upward 
mobility, and allows TSA to compete for the talent it needs, 
and make all of those changes within a disciplined program 
management approach that provides a clear understanding of the 
necessary steps, costs, and risks, and the time it will take to 
do it right.
    Madam Chair, Ranking Member Gimenez, and Members of the 
subcommittee, thank you for the opportunity to testify before 
you today, and I look forward to your questions.
    [The prepared statement of Mr. Neal follows:]
                   Prepared Statement of Jeffrey Neal
                              May 4, 2021
    Good morning Chairwoman Coleman, Ranking Member Gimenez, and 
distinguished Members of the subcommittee. My name is Jeffrey Neal and 
I am honored to appear before this subcommittee to discuss the vital 
issues regarding the workforce of the Transportation Security 
Administration.
    I was appointed as chief human capital officer for DHS during the 
Obama/Biden administration. In 2019, I chaired a Blue Ribbon Panel 
chartered by TSA at the direction of Administrator David Pekoske to 
provide a neutral third-party review of TSA's Human Capital Operations 
and examine how human capital policy decisions have affected the 
transportation security officer (TSO) workforce. During our initial 
meeting with Administrator Pekoske, it was evident to the Panel that he 
was seeking solutions to address human capital issues and, 
specifically, to deal with concerns from transportation security 
officers. In the time since our report, TSA has taken action to 
implement 43 of 46 Panel recommendations in 2 major areas:
  <bullet> Support for the TSO Workforce, and
  <bullet> Human Capital Service Delivery.
    I believe they have made good progress toward accomplishing the 
recommended changes.
    I share the respect that Members of this subcommittee and Chairman 
Thompson have for the TSA workforce. These men and women are the front-
line officers who protect the flying public. The Blue Ribbon Panel 
recognized the need to ensure that they have competitive pay and 
benefits, an effective means of moving up in the organization, and 
recognition for performance that exceeds expectations.
    We recommended that TSA provide these officers with longevity pay, 
similar to that provided to General Schedule employees. TSA implemented 
that recommendation. We recommended improved use of locality pay. TSA 
has implemented locality pay at 74 airports, using flexibility provided 
under the Aviation and Transportation Security Act (ATSA). We also 
recommended that TSA hire an experienced H.R. professional to lead its 
Human Capital operation. They did so, and Ms. Bradshaw has made 
significant improvements.
    I understand the interest in reducing the sweeping authorities 
authorized by ATSA. However, repeal of the personnel flexibilities 
provided by ATSA is double-edged sword. It will provide Merit System 
Protection Board appeal rights--a move I believe is in the best 
interests of TSA and its workforce. It will offer a degree of job 
security, a move that also has merit. But it will place employees under 
the General Schedule pay system--a move that I believe may have many 
unintended consequences.
    The Blue Ribbon Panel considered suggestions that TSA transition to 
the General Schedule to solve pay and hiring problems. We believed 
there was no evidence that such a change would have the intended 
results. Agencies that use the General Schedule complain about its 
inflexibility and lack of labor market sensitivity. It still takes 18 
years to get to Step 10. General Schedule job classification is 
governed by classification standards that often take OPM years to 
develop and are infrequently updated. It makes many pay policies 
dependent on action by the Office of Personnel Management, which does 
not always agree and is sometimes slow to respond to agency requests.
    The General Schedule was an effective pay system when it was 
designed in 1949. Much has changed since then. Virtually every good 
Government organization, including the National Academy of Public 
Administration and the Partnership for Public Service, has recommended 
replacing the General Schedule with a pay system that is appropriate 
for today's workforce and labor market. While the proposed Act rightly 
provides that no employee shall suffer a loss in pay, there is no 
guarantee that employees will continue to receive pay increases and 
benefits they might otherwise have received, such as split shift pay 
differentials and expanded leave transfer options. There is no 
guarantee that TSOs will be classified at any particular grade level. 
It is entirely possible that TSOs will be classified at a GS grade that 
provides for a lower pay range than is currently available to them. It 
is also possible that they will be classified at a grade level that 
requires far more funding than TSA currently has.
    Moving 50,000 employees to a different personnel system is a highly 
complex undertaking that requires extensive planning and a clear 
picture of the consequences of the change. It requires employee, 
supervisor, and H.R. training, so all stakeholders understand how to 
operate under the new rules. Most TSA employees, managers and H.R. 
specialists are not experienced in the General Schedule. Such a change 
also requires that the H.R. information technology is adapted to the 
new processes. The requirement to move to Title V rules, yet retain 
some pay and benefits under ATSA means that the HR information 
technology systems will need modifications. The 6-month transition 
period in the proposed Act does not provide adequate time to conduct 
the necessary planning, system changes, and training, and my 33 years 
of experience in Federal human capital management convince me that 
rushing to implement something so far-reaching almost certainly ensures 
it will be done badly. Botching a transition such as this will put the 
TSA employees and the agency mission at risk.
    Rather than moving the TSA workforce to a pay system that was 
designed when propeller-driven aircraft were the state-of-the-art in 
air travel, I urge the subcommittee to consider moving beyond the 
General Schedule. Consider the recommendations of good Government 
organizations and the GAO. Set minimum pay standards for TSOs that 
still provide flexibility to raise pay where needed. Codify a process 
that combines longevity pay increases, but allows high-performing 
employees to move up more quickly. Allow TSA, within a set of 
prescribed guidelines and following recommendations from GAO, NAPA, or 
other unbiased groups, to develop a pay system that fits the TSA 
workforce, provides job security, ensures employee rights, pay 
stability and upward mobility, and allows TSA to compete for talent it 
needs. And make all of these changes with a program management approach 
that provides a clear understanding of the costs, risks, and time it 
will take to do it right. Making these officers GS-5s or GS-7s is not 
likely to do that.
    The proposed Act provides an opportunity to rethink a 72-year-old 
pay system and provide employees with a modern, flexible, and 
competitive pay system that retains merit as the foundation of the 
civil service and makes the United States Government a model employer. 
The potential benefits of that are tremendous.
    Madam Chairwoman, Ranking Member Gimenez, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I look forward to your questions.

    Mrs. Watson Coleman. Thank you very much for your 
testimony, and thank you to each of the witnesses for their 
testimony.
    Mr. Warrick, I just wanted to piggyback on something that 
you mentioned--I think it was you--with regard to being able to 
make security decisions in a quick and efficient manner. That 
discussion is taking place in terms of language that may need 
to be updated in 903 that will not interfere with the ability 
to make those decisions.
    So, thank you for raising it. I knew that I had seen 
something to that effect, and so I am glad to report that we 
actually do listen.
    So, I would like to remind the subcommittee that we will 
each have 5 minutes to question the panel, and I will now 
recognize myself for questioning.
    One of this committee's priorities is to obviously improve 
morale at DHS, and as we know, DHS employees do consistently 
rank themselves among the least satisfied Federal workers, as 
Mr. Warrick has pointed out.
    But as Mr. Warrick's testimony laid out, the Department is 
not a monolith, and morale varies widely among different 
components.
    Mr. Warrick, this is for you. Last year, you authored a 
report on the future of DHS and said, and I quote, ``turning 
around DHS's morale problem starts with the 2 components that 
drive the Department's lowest scores, TSA and CBP.''
    You also wrote that by offering better pay, by giving TSA 
employees the prospect for a meaningful career, and by 
empowering TSA's employees, TSA can help lead and turn around 
DHS's morale. Would you please expand on how TSA serves as the 
tip of that sphere for a turnaround for the whole Department?
    Mr. Warrick. I would be happy to do that, Chairwoman. TSA 
is the largest component of DHS, and its problems are, for all 
of the difficulty that H.R. 903 might give, TSA's problems are 
almost the easiest to solve.
    H.R. 903 is one of the most constructive forcing functions 
to come out of the Congress in years in this area. I am fully 
aware of the fact that you could simply raise TSA salaries by 
$400 million through the appropriations process, but let's be 
realistic. These problems, as your witnesses have told you, 
have been known for some time, and yet this problem has not 
been fixed.
    One of the reasons that I welcome H.R. 903 is that it is a 
forcing function. It will compel changes that will address 
these problems. So, that is one reason I hope that it moves 
forward very speedily and in a bipartisan way through the 
Congress, because this really would show the employees of TSA, 
and all of DHS, the commitment of both the Legislative and the 
Executive branch to addressing DHS's morale problems.
    Mrs. Watson Coleman. Thank you.
    Mr. Warrick. These really do translate into security.
    Mrs. Watson Coleman. Thank you, Mr. Warrick.
    Dr. Kelley, from the perspective of AFGE's membership, 
would you please describe sort-of quickly how the passage of 
the Rights for the TSA Workforce Act would improve morale?
    Mr. Kelley. Oh, yes. I have to think about how to unmute 
myself. But we truly believe that it would improve morale, 
because it enhances the ability to do away with discriminatory 
practices, especially when it comes to women and people of 
color. OK? It automatically improve morale.
    Unlike, you know, Brother Neal's testimony, we believe 
that, you know, the system has been tried and proven. It has 
been substantially modified over the years to make it better. 
So we just think that it would improve morale all around, you 
know, from AFGE's perspective.
    Mrs. Watson Coleman. Thank you very much.
    With a little bit more than a minute, I would like to 
direct a question to you, Ms. Chaney. During the hearing, you 
mentioned that 55 percent of the TSA personnel are people of 
color, making it one of the most diverse components in DHS, 
probably the most----
    Ms. Chaney. Yes.
    Mrs. Watson Coleman [continuing]. Diverse component. In 
your testimony, you explain how passing the Rights for TSA 
Workforce Act is absolutely a matter of equity, and I couldn't 
agree more.
    What message does it send that one of the Government's most 
diverse workplaces also happens to be among its lowest-paid?
    Ms. Chaney. Well, I think it sends a message that we don't 
care about this work force, that they are not respected, that 
they are not valued, that their sacrifices are not valued. I 
know that is not what we mean, because when we go through the 
airport, I have seen Members of Congress do it, we say, thank 
you for your service.
    But the way that we thank people here, and in particular, 
in America, is that we pay them properly. We give them fair 
benefits. The Federal Government is a great place to work, but 
if you don't have the benefits of the Federal Government, it is 
not a great place to work. It is a cruel joke. So we want to 
restore their rights.
    Mrs. Watson Coleman. Tagging on to that for just 30 
seconds, what does that say about the issues of equal 
protection? Does it not point to unequal protection?
    Ms. Chaney. I think that, you know, that is a legal 
question. I think there are some arguments there. I am sure the 
union is making that point.
    What I think it says is that we have to make the workers at 
TSA whole. We have to make sure that they are treated the same 
as we expect all other Federal employees, as we expect all of 
us to be treated. That is what it says to me, and that is about 
the spirit of equal protection under the law.
    Mrs. Watson Coleman. Thank you. Thank you very much.
    So, I am going to recognize the other Members who have 
questions that they may wish to ask, and in accordance with the 
guidelines laid out by the Chairman and Ranking Member, in the 
February 3 colloquy, I am going to recognize Members in order 
of seniority, alternating between Majority and Minority 
Members. But I am first going to recognize my esteemed Ranking 
Member, Mr. Gimenez.
    Mr. Gimenez. Thank you, Madam Chairwoman, I really 
appreciate that.
    Mr. Neal, do you think that the No. 1 issue concerning the 
morale for TSO workers is actually pay, that they feel that 
they are underpaid?
    Mr. Neal. I don't. I think actually, probably the No. 1 
issue is quality of leadership in the airports.
    Mr. Gimenez. The quality of leadership in the airports, 
what do you mean by that?
    Mr. Neal. Quality of supervisors. When we look at employee 
survey data at TSA, what we found is there were some airports 
where the work force had good things to say about TSA and about 
the work, and there were airports where people who were doing 
the same work and incredibly unhappy.
    Obviously, pay is a factor in that, but the quality of the 
supervisors is a bigger factor. The fact that you have some 
airports where the employees actually say good things about the 
agency, says that a big chunk of it is the quality of those 
leaders.
    That was one of the recommendations we made, was to improve 
the quality of supervisors in the airports.
    Mr. Gimenez. Well, I guess that complies with my theory 
that 95 percent of the problems are management in nature. Is 
that correct?
    Mr. Neal. I would say that is true. Usually when you find 
problems in a workplace, look to management first.
    Mr. Gimenez. Would moving the TSOs into Title 5, would that 
solve the issue of management?
    Mr. Neal. No, sir, it wouldn't.
    Mr. Gimenez. All right. So management is actually something 
that the administration can deal with by choosing the right 
managers, by having the right policies in place, and does ATSA 
give the administration the flexibility to put those procedures 
in place?
    Mr. Neal. It actually gives them more flexibility than 
Title 5 would give them to deal with that kind of issue.
    Mr. Gimenez. So, if we wanted to really take care of the 
issue at TSA and other agencies, we would direct the 
administration to put the proper procedures in place, the 
flexibility that they have under ATSA.
    I also believe, wholeheartedly, I think they are underpaid, 
and we, as Congress, should be appropriating more money for TSO 
workers so that we can bump them up in pay and bring them up to 
the level that most Federal employees, you know, are getting. 
Because I do think that that is part of the problem, but I also 
think that 95 percent of the problem is management.
    Mr. Neal. I would agree with that. I do think that the pay 
issues are very significant issues, and those need to be dealt 
with.
    Part of the problem about putting them under the General 
Schedule, though, is there is no agreement on what grade level 
they would be. Some of TSA's classifiers said they would be GS-
5s. Some of them told us they would be GS-7s or maybe GS-8s.
    So nobody knows right now exactly what grade level these 
folks would be, and this bill could result in them getting 
large bumps in pay, or it could result in them being put in 
dead-end jobs where there is not more than a GS-5 or a GS-6 or 
7.
    Mr. Gimenez. Right.
    Mr. Warrick, to you. Do you think that just simply by 
moving the entire work force to Title 5 is going to solve the 
problem of morale at TSA?
    Mr. Warrick. If the clerk is able to put up figure 11 from 
my slide set, I would like to show you something. Basically, it 
is certainly true that the Title 5 approach has its flaws, but 
the solution is to fix the flaws in Title 5, not to say that 
TSA employees should somehow be denied the benefits of Title 5 
simply because it has flaws.
    Mr. Gimenez. Sir, I really don't have that much time, so I 
really can't, you know, look at your slides. So I have some 
other questions that I have.
    Isn't it true, though, that, say, in TSA right now, if you 
are a part-time employee, you can actually get full-time health 
benefits, but if you slide over to Title 5, the Title 5 
schedule, that if that happened, that part-time employees of 
TSA would not be able to get full-time health benefits?
    Mr. Warrick. Dr. Kelley can describe in detail that that 
depends on the number of hours somebody works, and that a 
supervisor, by playing games with the hours, can deny people 
benefits. That doesn't strike me as a fair policy.
    Mr. Gimenez. No, but I am saying under Title 5, that would 
be true. But right now, under TSA, part-time workers can get 
full-time benefits, right?
    Mr. Warrick. It depends on how many hours they work and 
other factors.
    Mr. Gimenez. OK. Well, thank you. It looks like my time is 
about to expire, so I yield back the balance of my time. Thank 
you, Madam Chair.
    Mrs. Watson Coleman. Thank you, Ranking Member.
    I now recognize Representative Payne for 5 minutes.
    Mr. Payne. Thank you, Madam Chair. I apologize. I am in 
transit, so please bear with me. Let me just say to you, Madam 
Chair, thank you for this timely hearing. Since your arrival in 
Congress, you have been consistent on this issue around 
justification, and a good working environment for these great, 
great public employees and servants. So I just want to commend 
you for that.
    Mrs. Watson Coleman. Thank you, kind sir.
    Mr. Payne. Ms. Chaney, I greatly appreciate the perspective 
that you provided here today. Clearly, TSA is a very diverse 
agency, and I am sorry I--when things go wrong, they all go 
wrong, but, you know--however, diversity doesn't always 
correlate with equity. Would you please explain the difference 
between diversity and equity, and how providing TSA work force 
full collective bargaining rights would create a more equitable 
agency?
    Ms. Chaney. Absolutely. Thank you, Congressman, for the 
question. I mean, just look at the agency as it currently is. 
It is diverse, and yet, it is not equitable. Whenever you find 
a situation where, you know, things look diverse on their face, 
and yet, it looks like people are getting equal treatment, and 
yet, in reality, if all of the people working at TSA, if they 
are predominantly people of color, yet they are not being 
treated the same as other people in the Federal work force, 
including other people at DHS, that is not equitable.
    So, we have to go and fix that in order to have equity at 
TSA, and equity for, really as I said in my testimony, the work 
force that is driving diversity and inclusion at the Department 
of Homeland Security. So it is absolutely important that we 
address this.
    Mr. Payne. Thank you. With respect to, you know, we have 
seen how the pandemic has disproportionately impacted 
marginalized groups around the country in a tragic way. 
Considering these impacts and that the majority of TSA's work 
force is made up of racial and ethnic minorities, would you 
conclude that they are also experiencing many of the same 
challenges?
    Ms. Chaney. Absolutely. What we know is that they are more 
than likely experiencing a greater number of COVID-related 
deaths and illness in their families, greater number of 
economic trouble.
    We already know from some of the testimony before that 
during the pandemic, many of them were living paycheck to 
paycheck, were struggling. We know that the same thing that is 
happening to them is happening to people of color elsewhere.
    But the difference is, they work for the Federal 
Government, and, so, we expect that they would have greater 
benefits. I am sure when they came to work there, they expected 
to have greater benefits. So it must be a cruel joke to be 
representing the United States of America, and being on the 
front lines and not being paid like it. We have got to fix it.
    Mr. Payne. Well, thank you.
    Madam Chair, I have introduced legislation, the Hazardous 
Duty Pay for Front-line Federal Workers that would ensure that 
TSA workers and other servants, who have continued to put their 
lives at risk during this pandemic, are properly recognized for 
the danger that they have put themselves in as they continue to 
keep the traveling public safe. I invite all my colleagues to 
join me as a cosponsor of this bill. With that, I yield back.
    Mrs. Watson Coleman. Thank you, Mr. Payne.
    The Chairman now recognizes Representative Ralph Norman for 
5 minutes.
    Mr. Norman. Thank you, Chairman, and thank each one of the 
participants today.
    Mr. Neal, on your testimony, what was the Congress' intent 
when it established the TSA after 9/11 in terms of its 
personnel system?
    Mr. Neal. It was intended to be a very flexible system that 
could be adapted as the situation changed within the TSA 
mission.
    Mr. Norman. So what is so--I guess, what is so important 
for TSA to have a personnel system that is not like the, I 
guess, the antiquated Title 5 systems?
    Mr. Neal. The problem with Title 5 isn't the bulk of Title 
5. It is the General Schedule pay system part of it, and that 
is the system is inflexible. It doesn't provide the ability for 
people to move up quickly; it doesn't provide the ability to 
adapt the pay to the labor market. So--and it was designed when 
literally more than half of the Federal employees were GS-5 and 
below, clerks.
    So it was a system designed for a work force full of clerks 
which we don't have now. It is very inflexible when it comes to 
assigning grade levels at jobs. Right now, it is possible that 
if TSOs were put under Title 5, that these officers could come 
out as GS-5s or 6s, which is the equivalent of a clerk or a 
secretary.
    So there is nothing in the bill that would guarantee a 
reasonable grade level for the employees. Right now, the 
classification would be akin to something like a security guard 
classification standard that OPM has written, and those jobs 
tend to be just 5s and 6s. So there is no guarantee this will 
actually help pay for TSOs.
    Mr. Norman. OK. You know, we have heard about low morale. 
What test was used to gauge the morale? Was it an internal 
questionnaire that went to an outside source, or what was used?
    Mr. Neal. They generally are using the Government-wide 
Federal Viewpoint Survey. That goes out to every Federal 
employee every year, and it is accurate that TSA's morale 
numbers, based on Federal Employee Viewpoint Survey, are quite 
low.
    It is also accurate that CBP, Customs and Border 
Protection's morale figures, are quite low, and they pay their 
employees GS-12 pay. So, they are much higher graded, much 
higher paid than the TSOs are likely to be, and, yet, they 
still have significant morale issues that haven't been dealt 
with by the pay that they have gotten.
    Mr. Norman. Does the test results point to management, 
individual management, at each of the airports that you 
mentioned?
    Mr. Neal. It does tend to show that there are problems with 
quality of leadership. A significant number of the questions 
relate to issues that are entirely under the control of 
managers, and those, they don't score well at all.
    Mr. Norman. So that is really the administration's--if it 
really wants to get to the root of the problem and correct it, 
it is up to the administration to issue guidelines addressing 
the problems that the morale report shows. Would that make 
sense?
    Mr. Neal. I would say that the current and the previous 3 
administrations should have been doing more to deal with 
supervisory issues.
    Mr. Norman. And put guidelines in place?
    Mr. Neal. Yes, sir.
    Mr. Norman. OK.
    Mr. Warrick, you state that H.R. 903 can solve the issues 
of the low morale with the TSA, but TSA could fix--can it not 
fix its own hiring, retention, and pay issues under the ATSA?
    Mr. Warrick. It certainly would be possible to be able to 
do that. However, the fact that it hasn't been done for so many 
years would lead you to believe that that is just not a 
workable solution. I think if you appropriated a lot more 
money, or if you graded the work done at a level to generate 
enough retention in the TSA work force, you could solve this 
problem through several ways. But of all the methods available, 
H.R. 903 is the best one on the horizon right now.
    Mr. Norman. Would you agree that if the morale studies show 
that the managers bear a lot of responsibility, should that not 
be top priority?
    Mr. Warrick. Actually, if you look at figure 11 in my 
written testimony, TSA ranks its supervisors--the employees 
rank their supervisors about on a par with other DHS 
supervisors. So, I don't think the supervisors are the same 
level of problem that pay, promotions, and empowerment are.
    I certainly would hold supervisors to a high standard, and 
there are improvements that definitely should be made in that 
area. That is absolutely true.
    Mr. Norman. OK. Back to you, Mr. Neal, the Blue Ribbon 
Panel report shows that approximately it took 270 days to hire 
a TSA screener. Why so long?
    Mrs. Watson Coleman. The gentleman's time is up, but you 
can answer the question quickly.
    Mr. Neal. It is primarily the security clearance process. 
It is a complicated and lengthy process, and that causes it to 
be drug out for a long time.
    Mr. Norman. Thank you.
    Mrs. Watson Coleman. Thank you very much.
    I now recognize Representative Dina Titus.
    Ms. Titus. Thank you very much, Madam Chairman, and thank 
you for your indulgence of letting me come back on. I was right 
in the middle of another question.
    I would like to ask Dr. Kelley if he would talk some more 
about the impact of unions. Las Vegas is a strong union town. 
We know when unions can negotiate for their workers, they are 
able to come to a more equitable situation. Unions help people 
get in the middle class and stay in the middle class. Here is 
TSA with the inability to unionize like other Government 
agencies are able to do.
    Would you just address some of the problems that you see 
that have occurred because of that lack of a presence at the 
table to talk about working conditions, talk about COVID, talk 
about equitable salary, being safe, being fair, Dr. Kelley?
    Mr. Kelley. There are great advantages in being a part of 
the union. Now, I have to say that, you know, all of TSA is not 
absent a union, because the very supervisors that rate and rank 
these employees, the TSOs, are already unionized. OK. They 
understand the urgency. They understand the importance. At the 
same time, these employees that are TSOs don't have that same 
flexibility.
    Now, when it comes to unions' ability to negotiate, right, 
I think it makes for a good playing field to have those kind of 
collaborations between the management team and the work force, 
right? It gives the manager an opportunity to hear from the 
work force to make a determination as to, you know, at least 
give management an opportunity to hear the work force, you 
know, and what they value more than anything.
    When it came to the COVID, we all know that we had over, as 
of yesterday, 7,800 TSOs that was affected by the COVID. We had 
about 16 that died from COVID. Can we replace that? No. Had we 
had a union presence that was really talking about, you know, 
how we can make a safer workplace, how we can prevent deaths 
and illnesses, you know, it was right there and it was open, 
clear, and honest debate, I don't think we would have seen that 
many deaths. I don't think we would have seen that many being 
contracted with the virus.
    So it has such benefit. You talking about morale, right? We 
can't say that the GS system is a perfect system. I don't think 
anyone that offers testimony today would say that; but the 
people do trust it, OK? TSOs trust the system. They want the 
system. They asked for the system. Pay is their No. 1 issue. I 
am listening to them every single day, and so many of them 
barely make ends meet because of that.
    Now, again, the GS system is not perfect, but it is 
certainly better than these inflexible opportunities that are 
being presented, you know. The employees are asking for the GS 
system. If you want morale, you know, to be beefed up, you 
know, they are saying give us better pay, so that we can 
provide, you know, stability in our homes, and in our 
communities, and those types of things.
    So I hope I answered your question.
    Ms. Titus. You did. You absolutely did, Dr. Kelley.
    That also leads to my next question to Mr. Neal and his 
Blue Ribbon Panel. I am just curious as to why there was no 
labor representative from TSA sitting on that panel to help 
come up with the recommendations for redoing the personnel 
system?
    Mrs. Watson Coleman. You are muted, Mr. Neal. You have to 
unmute.
    Mr. Neal. Sorry. Sorry about that.
    We were asked to put together a list of people from outside 
the Government who were senior people who would understand the 
issues at TSA, and there was no request to include a union 
member in the panel, so we did not.
    Ms. Titus. So you were asked and there was no request. Who 
asked you to do that then, suggested not to include labor?
    Mr. Neal. It was a contract, and so there was a 
solicitation that said here is what we want to have in a panel, 
the type of people. They didn't exclude folks who were union 
officials. They didn't include them. We had a small panel, so--
--
    Ms. Titus. Would it have been an overall better assessment, 
if you had some union people at the table, since this is a 
personnel system that is going to be affecting their daily 
lives, and they could have had very valuable input to the 
panel?
    Mr. Neal. I think they would have told us a lot of what we 
heard from the employees, which was, they didn't like their pay 
system. They didn't like how they were treated by supervisors. 
The employees were--one of the great things about TSA's work 
force is they are vocal, and they are not the least bit bashful 
about telling you about what they think and what they want 
don't like. They were very clear about what they didn't like, 
and our report highlighted that, and highlighted some of the 
things that the agency needed to do to address those issues.
    Ms. Titus. Well, thank you.
    Madam Chairwoman, I would yield back. But I just think it 
is almost ridiculous to have a Blue Ribbon Panel to look at the 
personnel system when you don't have any representation from 
labor when the lack of the labor union to represent your 
interests is one of the biggest problems.
    Thank you. I yield back.
    Mrs. Watson Coleman. Thank you, Representative Titus.
    A couple of things I heard that I would just like to speak 
to very, very quickly.
    No. 1 is that conceptually, it might have been a great idea 
for TSA to have the kind of flexibility that we felt we needed 
at that time, a very heightened time of concern, unprecedented 
assault upon us, et cetera. So the flexibility has existed to 
make life better, and fairer, and more predictable, but it 
hasn't happened. Every administration that came about since 
that legislation was enacted, there is responsibility for that.
    The one thing Title V does is ensures predictability and 
treatment equal to what other Federal employees get. There is a 
provision, because I know my Ranking Member, the Ranking 
Member, was very concerned about pay grade and pay level. But I 
want you to know that there is a protection in the bill that 
ensures that no employee would be paid less under Title V. So, 
this may not be a perfect--but I think that that these 
employees are crying and screaming and yelling and hollering 
and stomping for equality and predictability, and the 
opportunity to see where their careers could possibly lead 
them.
    I now would like to recognize--thank you Congresswoman, for 
your patience, here--Congresswoman Elaine Luria.
    Mrs. Luria. Thank you, Madam Chair, and thank you for 
holding this hearing today to talk about TSA as they are, you 
know, passing the 20-year milestone.
    I visited with TSA representatives here at our local 
airport, at Norfolk International Airport, as they worked 
through the Government shutdown when I first came into office 
and as they, you know, endured a year of difficult working 
conditions through the pandemic. One thing I have heard every 
time that I visited with them is that they are very interested 
in transitioning to be under Title V.
    I will note that our TSA work force at the Norfolk 
International Airport has really maintained safety of 
passengers. They have apprehended 6 firearms this year alone in 
carry-on luggage through our airport, even with the reduced 
passenger volume. So they really are removing something that is 
potentially a threat to passengers in the air.
    One of the things that has been argued by people who are 
detractors from switching to being under Title V say that TSA 
was provided unique authorities to give it the ability to issue 
security directives and emergency amendments to protect the 
traveling public without being subjected to delays or 
negotiations, even with its own employees.
    Dr. Kelley, could you speak to that? Are those valid 
concerns? How could they be mitigated if employees were placed 
under Title V?
    Mr. Kelley. You mean as far as TSA being able to take an 
action in a timely manner?
    Mrs. Luria. Yes. You know, would it change anything about 
how they could react in a timely manner? You know, like the 
Chairwoman said, some of the things were put in place in the 
very early days of the Department of Homeland Security, post-9/
11, establishing TSA because it was thought there needed to be 
some rapid flexibility. But would any of that go away under 
Title V, or would they still be able to serve in the same way?
    Mr. Kelley. OK. Thank you, Congresswoman Luria, for that 
question, because there is a misrepresentation of that. It does 
not go away. TSA still has the flexibility to act in a timely 
manner to address any issue that it needs to address, you know. 
While I have just a moment, can I just say this? That, you 
know, the bill, as it relates to pay, you know, can specify, 
right, the classification of the job, and that is the thing 
that we also need to understand, you know. So I just wanted to 
add that while I had an opportunity, if that is OK.
    Mrs. Luria. Well, no. Thank you, Dr. Kelley.
    You know, thinking about this, there is other entities 
within DHS, CBP, for example, that has a security mission that 
operates under Title V. Would you agree that, similarly, you 
know, if CBP can operate under that, that it would show that 
there is really no reason that TSA couldn't operate as well 
under that system?
    Mr. Kelley. I totally agree with you on that. That has been 
tried and proven, once again. You know, over and over, we see 
that TSA can operate effectively and efficiently under Title V 
because, you know, so many other entities have already proven 
that it can occur.
    Mrs. Luria. Great.
    Dr. Kelley, one last question because, you know, I am just 
trying to dispel some of the things that, you know, maybe 
critics of this legislation have put forward. But, you know, 
some people might argue that under current law, you know, TSA 
can exercise a one-step removal for serious offenses. But would 
switching to Title V change anything about being able to hold 
employees accountable, you know, if there was some sort of 
egregious or misconduct action?
    Mr. Kelley. Again, Title V does not eliminate TSA's ability 
to act in a timely manner for even up to removal on egregious 
actions, you know, and Title V does not eliminate that. Matter 
of fact, it might enhance that in many ways.
    Mrs. Luria. Well, thank you.
    You know, I just wanted to bring up some of these points 
because, you know, in talking about this, these are some of the 
arguments that people have made against this, and I strongly 
support this legislation. I co-sponsored it last Congress and 
look forward to having an opportunity to move it forward this 
Congress, and just wanted to make sure we could dispel kind-of 
any of those myths about what a shift to this Title V system 
for TSA employees would entail.
    So, thank you again for testifying today, and to all of our 
witnesses for being here.
    I yield back.
    Mrs. Watson Coleman. Thank you, Congresswoman.
    I think that we all recognize that this is a very important 
piece of legislation. It is still in the process. If, as a 
result of our holding these various hearings, things come up 
that we recognize would improve, protect, or solidify, we ought 
to be willing to listen to those things and to incorporate 
those considerations as we move forward.
    We have no more Members who have questions. So if there is 
no desire to enter a second round of questioning?
    Alrighty then.
    I want to thank the witnesses. You all have been very, very 
helpful. I appreciate your commitment to the work that you do 
and the perspective that you shared with us today. The Members 
of the subcommittee may have additional questions for you, and 
we would ask that you would respond expeditiously in writing to 
those questions.
    So without--excuse me. I am having a technical----
    I have one more thing to say regarding 903. I think that, 
by and large, there is bipartisan support for what we are 
intending to accomplish on behalf of these front-line employees 
who really had it on the line during the pandemic and had it on 
the line after January 6 and got it on the line right now. They 
are confronted with all kinds of possible dangerous situations; 
but they show up, and their purpose is to keep us safe, and 
they keep us moving and they keep us safe.
    So, I am going to ask that my Republican counterparts on 
this subcommittee consider signing on to the legislation. You 
want to help us make it better, you know, please offer your 
advice. But we agree that these employees are entitled to 
greater protections, greater dignity and respect for the work 
that they do.
    As I said, some other Members of the subcommittee might 
have questions for the witnesses, and they will probably send 
them to you, and we ask that you would respond expeditiously in 
writing to us.
    Now, without objection, the committee record will remain 
open for the 10 days.
    Hearing no more business, God bless you. Thank you for 
being with us today and sharing your information.
    The committee is adjourned.
    [Whereupon, at 3:18 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
